<html>
<title> - A REVIEW OF EFFORTS TO PROTECT JOCKEYS AND HORSES IN HORSERACING</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
    A REVIEW OF EFFORTS TO PROTECT JOCKEYS AND HORSES IN HORSERACING

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 30, 2012

                               __________

                           Serial No. 112-140


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
78-795                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4720372807243234332f222b376924282a69">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire       MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey                Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia
                         Subcommittee on Health

                     JOSEPH R. PITTS, Pennsylvania
                                 Chairman
MICHAEL C. BURGESS, Texas            FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               JOHN D. DINGELL, Michigan
JOHN SHIMKUS, Illinois               EDOLPHUS TOWNS, New York
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   LOIS CAPPS, California
TIM MURPHY, Pennsylvania             JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
PHIL GINGREY, Georgia                TAMMY BALDWIN, Wisconsin
ROBERT E. LATTA, Ohio                MIKE ROSS, Arkansas
CATHY McMORRIS RODGERS, Washington   JIM MATHESON, Utah
LEONARD LANCE, New Jersey            HENRY A. WAXMAN, California (ex 
BILL CASSIDY, Louisiana                  officio)
BRETT GUTHRIE, Kentucky
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
  


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     1
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     4
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     5
    Prepared statement...........................................     6
Hon. Jim Gerlach, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     7
Hon. Patrick Meehan, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     8

                               Witnesses

Gary Stevens, Hall of Fame Jockey................................     9
    Prepared statement...........................................    11
Arthur B. Hancock, III, Thoroughbred Owner.......................    16
    Prepared statement...........................................    18
Gretchen Jackson, Thoroughbred Owner of the 2006 Kentucky Derby 
  winner, Barbaro................................................    22
    Prepared statement...........................................    24
George W. Strawbridge, Jr., Thoroughbred Owner...................    27
    Prepared statement...........................................    29
Kenny McPeek, Trainer............................................    41
    Prepared statement...........................................    44
Dr. Kathryn Papp, DVM, Hillcrest Meadow Equine Services, LLC, 
  Harrisburg, Pennsylvania.......................................    48
    Prepared statement...........................................    51
Glenn Thompson, Trainer and Author: ``The Tradition of Cheating 
  at the Sport of Kings''........................................    53
    Prepared statement...........................................    56
Dr. Gregory Ferraro, DVM, Professor of Veterinary Medicine, and 
  Director, Center for Equine Health, School of Veterinary 
  Medicine, University of California, Davis......................    60
    Prepared statement...........................................    61

                           Submitted Material

Statement of Senator Tom Udall, submitted by Mr. Pitts...........    73
Statement of New Jersey Equine Clinic, submitted by Mr. Pitts....    78
Publication entitled, ``Clinical Guidelines for Veterinarians 
  Practicing in a Pari-Mutuel Environment,'' from American 
  Association of Equine Practitioners, submitted by Mr. Pitts....    81
White paper entitled, ``Putting the Horse First: Veterinary 
  Recommendations for the Safety and Welfare of the Thoroughbred 
  Racehorse,'' from American Association of Equine Practitioners, 
  submitted by Mr. Pitts.........................................    94


    A REVIEW OF EFFORTS TO PROTECT JOCKEYS AND HORSES IN HORSERACING

                              ----------                              


                         MONDAY, APRIL 30, 2012

                  House of Representatives,
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 9:33 a.m., at 
Unionville High School, 750 Unionville Road, Kennett Square, 
Pennsylvania, Honorable Joe Pitts (chairman of the 
subcommittee) presiding.
    Members present: Representatives Pitts, Burgess, and 
Whitfield.
    Also present: Representatives Gerlach and Meehan.
    Staff present: Brenda Destro, Professional Staff Member, 
Health; Cory Hicks, Policy Coordinator, Energy and Power; 
Debbee Keller, Press Secretary; Carly McWilliams, Legislative 
Clerk; Heidi Stirrup, Health Policy Coordinator; and Jean 
Woodrow, Director, Information Technology.
    Mr. Pitts. This subcommittee will come to order.
    Good morning, everyone. First, I would like to acknowledge 
Unionville High School for hosting this field hearing today. 
This is a wonderful venue, and we appreciate your hospitality.
    Second, I would like to thank Superintendent Dr. John 
Sanville, Principal Paula Massanari and Mr. Rich Hug, the 
Director of Technology and Communications, along with their 
staff for everything they have done to make this hearing 
possible.
    I would like to recognize Dr. John Sanville, Superintendent 
of Unionville-Chadds Ford School District for a few minutes at 
this time. Dr. Sanville.
    Mr. Sanville. Thank you, Chairman Pitts and other members 
of the committee, and I apologize for my back here. I welcome 
everyone to Unionville High School and the Unionville-Chadds 
Ford School District. This is an honor, and also something we 
are quite thankful for. This provides an opportunity for our 
students who are in the back here from Mrs. Grilliot's AP 
government class to see democracy in action on a topic, an area 
that is near and dear to the hearts of the community of 
Unionville-Chadds Ford.
    So with that, I thank you all very much, and I will turn it 
back over to you, Chairman Pitts.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. Thank you, Dr. Sanville.
    We have two non-committee members joining us today, 
Congressman Jim Gerlach and Congressman Pat Meehan. From the 
Health Subcommittee, we have Congressman Ed Whitfield, chairman 
of the Energy and Power Subcommittee and a very valuable leader 
on this and other issues in our committee, and we will also be 
joined by Congressman Mike Burgess, who is the vice chair of 
the Health Subcommittee, by videoconference from Texas. Now I 
recognize myself for 5 minutes for an opening statement.
    Today's hearing will look at the effects of drug use in 
horseracing, how it impacts the health and wellbeing of 
jockeys, and whether adequate rules and uniform enforcement 
exist to prevent doping in horseracing.
    In 2008, members of the Energy and Commerce Committee held 
a hearing on ``Breeding, Drugs, and Breakdowns: the State of 
Thoroughbred Horseracing and the Welfare of the Thoroughbred 
Racehorse.'' At that time, we heard testimony and promises from 
industry groups and State racing commissions that reform was 
needed and would be forthcoming.
    According to a March 25, 2012, New York Times investigative 
article, ``Since 2009, records show trainers at United States' 
tracks have been caught illegally drugging horses 3,800 times, 
a figure that vastly understates the problem because only a 
small percentage of horses are actually tested.'' Further, the 
New York Times found ``Illegal doping, racing officials say, 
often occurs on private farms before horses are shipped to the 
track. Few States can legally test horses there.''
    Questions arise now about whether or not such rampant drug 
use leads to more breakdowns and injuries in horses and 
jockeys, and if so, what should be done about it.
    We are here today, in the heart of Thoroughbred horse 
country in Pennsylvania, I might say, in my district, the 16th 
Congressional District--welcome to my district--to hear 
firsthand from Thoroughbred owners, trainers, jockeys, 
veterinarians, and lab experts on whether the previously 
promised reforms by industry have had any desired effect.
    I have heard from horse owners who make sure their animals 
are 100 percent drug-free when they race and are really 
bothered by what they see other people doing.
    We will consider the need for a national set of uniform 
rules to prohibit the use of performance-enhancing drugs with a 
set of consequential penalties for violations. We can look at 
whether it is possible to create a uniform set of rules for 
drug use--perhaps zero tolerance--so that every State, every 
race, is conducted on a level playing field which is fair to 
all competitors, similar to what we have in other professional 
sports.
    Horseracing, unlike all other professional sports, adheres 
to no national anti-doping policy. We have been racing horses 
in the United States for over 200 years, but the alarming 
number of breakdowns and increased drug use has been a fairly 
recent practice.
    Racing is an inherently dangerous sport. However, the 
increased incidences and severity of breakdowns, which has 
resulted in many serious jockey injuries, demands a closer look 
at the issue of drugs used in horseracing and how they 
contribute to unnecessary risk to the horse and rider.
    Despite promises and assurances, State and industry groups 
have been unable to come together to develop uniform rules. The 
fact remains that there is no single entity which has the 
authority to impose uniform rules on racing commissions, 
tracks, trainers and owners. Congress may need to step in to 
offer a sound national framework to protect the horses, the 
riders and the public.
    The Interstate Horse Racing Act of 1978 was enacted by 
Congress to allow simulcast rights for racetracks, so that they 
could expand their wagering clients. Today, that business makes 
up a majority of racetrack business.
    My personal view is that casino gambling at racetracks is a 
dangerous and misguided way to increase the fan base and grow 
interest in the sport, but that is a subject for another day.
    I just have been given an article. It is the top of the 
page, front page, New York Times, yesterday's article on ``Big 
Purses, Lame Horses and Debt'' talking about this issue of 
casino gambling impact on the racehorse industry, and it is, as 
you can see, quite a long article, and I look forward to 
reading that.
    Since 1978, Congress has continued to address public 
concerns about the industry and its practices. Today's hearing 
is being held to look at the problems associated with drug use 
in horseracing. Horse doping, breakdowns and jockey crashes are 
most certainly a contributing factor to the waning public 
interest in this sport. On the first day of Derby Week, when 
public attention on this beautiful sport is at its peak, it is 
an opportune time to discuss how the industry can regain public 
confidence.
    I look forward to hearing from our witnesses.
    [The prepared statement of Mr. Pitts follows:]

               Prepared statement of Hon. Joseph R. Pitts

    Today's hearing will look at the effects of drug use in 
horseracing; how it impacts the health and wellbeing of 
jockeys, and whether adequate rules and uniform enforcement 
exist to prevent doping in horseracing.
    In 2008, members of the Energy and Commerce Committee held 
a hearing on ``Breeding, Drugs, and Breakdowns: the State of 
Thoroughbred Horseracing and the Welfare of the Thoroughbred 
Racehorse.'' At that time, we heard testimony and promises from 
industry groups and state racing commissions that reform was 
needed and would be forthcoming.
    According to a March 25, 2012 New York Times investigative 
article, ``since 2009, records show, trainers at United States' 
tracks have been caught illegally drugging horses 3,800 times, 
a figure that vastly understates the problem because only a 
small percentage of horses are actually tested.''
    Further, the New York Times found, ``Illegal doping, racing 
officials say, often occurs on private farms before horses are 
shipped to the track. Few states can legally test horses 
there.''
    Questions arise now about whether or not such rampant drug 
use leads to more breakdowns and injuries in horses and 
jockeys. And if so, what should be done about it.
    We are here today, in the heart of Thoroughbred horse 
country in Pennsylvania, to hear from Thoroughbred owners, 
trainers, jockeys, veterinarians and lab experts from their 
firsthand experience and knowledge, the extent to which the 
previously promised reforms by industry have had any desired 
effect.
    I've heard from horse owners who make sure their animals 
are 100% drug free when they race, and are really bothered by 
what they see other people doing.
    We will consider the need for a national set of uniform 
rules to prohibit the use of performance enhancing drugs with a 
set of consequential penalties for violations.
    We can look at whether it is possible to create a uniform 
set of rules for drug use--perhaps zero tolerance--so that 
every state, every race, is conducted on a level playing 
field--which is fair to all competitors--similar to what we 
have in other professional sports.
    Horse racing, unlike all other professional sports, adheres 
to no national anti-doping policy. We have been racing horses 
in the United States for over 200 years, but the alarming 
number of breakdowns and increased drug use has been a fairly 
recent practice.
    Racing is an inherently dangerous sport. However, the 
increased incidences and severity of breakdowns, which has 
resulted in many serious jockey injuries, demands a closer look 
at the issue of drugs used in horse racing and how they 
contribute to unnecessary risk to the horse and rider.
    Despite promises and assurances, state and industry groups 
have been unable to come together to develop uniform rules. The 
fact remains that there is no single entity which has the 
authority to impose uniform rules on racing commissions, 
tracks, trainers, and owners. Congress may need to step in to 
offer a sound national framework to protect the horses, the 
riders and the public.
    The Interstate Horse Racing Act of 1978 was enacted by 
Congress to allow simulcasting rights for racetracks, so that 
they could expand their wagering clients. Today, that business 
makes up a majority of racetrack's business.
    My personal view is that gambling at racetracks is a 
dangerous and misguided way to increase the fan base and grow 
interest in the sport--but that is a subject for another day.
    Since 1978, Congress has continued to address public 
concerns about the industry and its practices. Today's hearing 
is being held to look at the problems associated with drug use 
in horse racing.
    Horse doping, breakdowns, jockey crashes are most certainly 
a contributing factor to the waning public interest in this 
sport. On the first day of Derby Week, when public attention in 
this beautiful sport is at its peak, this is an opportune time 
to discuss how the industry can regain public confidence.
    I look forward to hearing from the witnesses and yield 
back.

    Mr. Pitts. At this time I yield back and recognize our vice 
chairman of the Health Subcommittee, Dr. Burgess, for 5 minutes 
by video conference in Texas. Dr. Burgess, you are recognized.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Mr. Chairman. I won't take the 
entire 5 minutes. I know time is a little bit tight this 
morning.
    I just want to appreciate the fact that I was able to 
simulcast from Texas because Texas is also horse country, and I 
also want to acknowledge the work of Chairman Whitfield when he 
was our subcommittee chairman on Oversight and Investigations 
several years ago and had a number of hearings into the 
horseracing business, at that time primarily concerned about 
the insurance that jockeys were provided but a number of these 
issues came up as well.
    So I certainly look forward to the testimony of our 
witnesses today. I want to thank the people in Pennsylvania for 
making this possible, and I acknowledge the presence of my 
colleagues who are not on the committee. I welcome their 
presence at today's hearing.
    Mr. Chairman, I will yield back to you at this time.
    Mr. Pitts. The Chair thanks the gentleman.
    At this time we will recognize our first panel. We have 
four experts from the racing industry on our first panel: Mr. 
Gary Stevens, a retired jockey. Yes. Before we have the 
experts, let us give the other members a chance for opening 
statements. Mr. Whitfield, I am sorry. You are recognized for 5 
minutes.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Well, thank you, Chairman Pitts, and I would 
like to also say how glad we are to be in Chester County, 
Pennsylvania. I might say that if I had known it was this 
beautiful, we would have come up a long time ago. We are also 
delighted to have students with us today, and we know that they 
are all involved in political science, so they may have some 
advice for us as we go along as well.
    And I know that we are very excited about our witnesses 
today because we have some people with great experience in the 
horseracing industry, we have vets, we have others that I 
believe will well represent the entire industry on the issues 
that we are interested in.
    I might also say that the horseracing industry is a $40 
billion industry as an impact on our national economy. It 
employs over 460,000 people directly and indirectly provides 
jobs for about another 1.4 million people.
    The recent New York Times article entitled ``Mangled Horses 
and Maimed Jockeys'' as well as the one you mentioned today, 
``Big Purses, Sore Horses and Death'' has once again reminded 
us of what I call the dark side of racing in America. To quote 
from the first article, ``On average, 24 horses die each week 
on racetracks across America. Many are inexpensive horses with 
little regulatory protection.'' Twenty-three horses broke down 
on a single day last year. That was the day of the Kentucky 
Derby. Now, all the breakdowns did not occur at Churchill Downs 
but around the country that day, 23 horses went down. I was 
told that Finger Lakes last year, there was testimony that at 
Finger Lakes, 63 horses died on the track last year alone, 
Finger Lakes, York.
    Now, some people dismiss the issue by saying well, these 
are just animals, but while the horse is important, the jobs 
provided are certainly important, the economic impact is 
certainly important, but even more important than all of that 
in my view is the safety issue, and certainly nothing is more 
important than safety for those men and women who are jockeys 
out there riding these magnificent animals, and we really don't 
know that the injury count is. I can tell you one thing, Dr. 
Burgess and I did have a hearing a few years ago on the jockeys 
and more than one jockey came in who was a quadriplegic from an 
accident on the track.
    This is a controversial issue because any time you talk 
about change, people and entities feel threatened, which is 
just a natural inclination, and there are groups very much 
opposed to the legislation that Tom Udall and some of us have 
introduced, H.R. 1773. The National Thoroughbred Racing 
Association doesn't really like that legislation. The Jockey 
Club is threatened by it. The Horsemen's Benevolent Protective 
Association and some of the horsemen's groups don't like it. We 
know that the American Association of Equine Practitioners, 
particularly Dr. Scott Palmer, don't like it. We know that some 
of the tracks are concerned about this legislation.
    So it is an issue that is controversial and we are very 
much aware of that as we move forward because any time you talk 
about change, people feel threatened by it. And many people say 
the federal government should not be involved in horseracing, 
it is a State issue. But the fact is, the federal government is 
already involved in horseracing with the passage of the 
Interstate Horseracing Act of 1978. The industry came to the 
U.S. Congress and asked for the authority for simulcasting, and 
the Congress gave that authority without any strings attached. 
And so the predicament that we find ourselves in today is that 
there is not one entity that has any authority over 
horseracing. There is not any uniform drug test rules. There is 
not any uniform lab. And unlike other countries around the 
world, the use of drugs is prevalent throughout the racing 
industry and America.
    Now, we know that therapeutic drugs are necessary but 
performance-enhancing drugs are another issue, and when you 
have representatives of foreign countries come to America and 
say we are not really interested in buying horses in America as 
much as we used to be because we are concerned about the drugs 
being used and many people--Arthur Hancock and others--have 
said they are very much concerned about the weakening of the 
breed because the horses winning the races are the ones that 
are bred the most and they may not be the genetically strong 
horse, that they win because of performance-enhancing drugs.
    So we are talking about the horse, yes, we are talking 
about jobs, we are talking about the economy, we are talking 
about weakening the breed, we are talking about the public 
perception of racing, we are talking about the danger for 
jockeys. And when I asked Jack van Berg, who is a Hall of Fame 
trainer, about this issue, I said will you describe the drug 
issue in horseracing today. This is about 3 years ago at a 
hearing. He said the best way I can describe it is that it is 
chemical warfare out there.
    So I am looking forward to our testimony today, Chairman 
Pitts, and I genuinely appreciate your having this hearing.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    Mr. Chairman, thank you very much for holding this hearing 
on the horseracing industry and for the role you have played in 
helping clean up this sport.
    In 2008, the Commerce Trade, and Consumer Protection 
Subcommittee, under a Democratic controlled Congress, held a 
hearing on the abuse of performance enhancing drugs in 
horseracing.
    During that hearing, which I attended, the National 
Thoroughbred Racing Association stated and I quote, ``I can't 
speak to the distant past, but I can tell you that recently 
this industry has been making great strides towards uniformity 
at the national level and the NTRA has been an important 
catalyst for that change.''
    Unfortunately, 4 years later, the promise to clean up 
horseracing still has not come true and the most recent 
evidence of that fact was the New York Times article titled, 
``Mangled Horses, Maimed Jockeys.''
    The problem with any promise to reform the horseracing 
industry from the NTRA, the Jockey Club, the RCI, and other 
horse groups is even if they had the desire to institute a true 
no drug policy, they have no way to adequately conduct drug 
tests or enforce the policies that are in place currently.
    The reason one organization cannot reform horseracing is 
because each state has their own laws making it impossible for 
a trainer, owner, veterinarian, or jockey to know what is and 
is not acceptable in each of the 38 racing jurisdictions.
    The viability of horseracing is important to our nation's 
economy and if there are problems in the industry Congress 
cannot afford to ignore them. The horse industry has a $40 
billion-a-year effect on our economy, employing over 460,000 
people and indirectly providing jobs for 1.4 million people.
    Horseracing alone has a direct effect on GDP of $10.6 
billion and a total GDP effect of $26.1 billion.
    Additionally, spectators at the tracks are being defrauded 
when a horse is drugged because the odds are stacked against 
the good actors that are trying to play it fair. It's like 
playing blackjack and the dealer always gets the ace.
    As I stated at the last horseracing hearing, ``greed has 
trumped the health of the horse, the safety of the jockey, the 
strength of the breed, and the integrity of the sport.''
    This brings us to where we are today. In my view 
horseracing has three problems:
    First, as we discussed horses are being drugged and are not 
running on their own natural abilities, which is literally 
killing the industry. The New York Times reported that ``on 
average, 24 horses die each week at racetracks across 
America.'' Additionally, the jockeys riding the horses are 
thrown from the horse and either die or end up in a wheel chair 
for the remainder of their life.
    Second is the lack of transparency on racetracks. What I 
mean by that is on many occasions racetracks do not report when 
a horse breaks down on the track and when it is reported the 
root cause of the breakdown is never determined. Take the 
example provided by the New York Times analysis where they 
concluded that 3,600 horses died racing or training at state-
regulated tracks over the last three years. I'm sure their 
number is underestimated and the sad truth is no one really 
knows how many horses or jockeys are affected.
    Last, the horseracing industry lacks a central authority. 
Right now, there is an unorganized conglomerate of horse groups 
trying to police an industry that has 38 different sets of 
rules to follow for each state where horseracing occurs. I 
realize people are reluctant to allow the federal government's 
involvement in horseracing, but the truth is the industry has 
had federal government involvement since 1978 when simulcasting 
was allowed.
    H.R. 1733, the Interstate Horse Racing Improvement Act 
attempts to protect the horseracing industry with very little 
federal involvement.
    Some may not like this bill because they say it bans all 
drugs, but I just don't see how a pro-drug policy is a winning 
argument.
    Other people do not like this bill because they do not want 
to touch the Interstate Horseracing Act. My response to them 
is- please bring me changes to H.R. 1733 to accomplish the same 
goal and I would be happy to consider them. I've never said 
H.R. 1733 is perfect, but it is a proposed solution to a 
problem that must be addressed.
    I might add that H.R. 1733 is designed to have as little 
federal involvement as possible. In fact, the bill still keeps 
the regulation of the industry at the state, but it sets a 
federal standard that must be met. Most industries have federal 
standards to ensure that interstate commerce is able to thrive 
under a level playing field. That is all this bill is designed 
to do- create a level playing field.
    So, I want to thank the witnesses again today for being 
here. I look forward to your testimony and I hope we can move 
this industry forward. I also hope that we are not here again a 
few years from now discussing this same exact problem.
    Thank you and I yield back the balance of my time.

    Mr. Pitts. The Chair thanks the gentleman from Kentucky and 
notes that he is a national leader on this issue and we really 
value your expertise and advice on this matter.
    At this time the Chair recognizes the gentleman, my 
colleague from Chester County, Mr. Gerlach, for 5 minutes for 
an opening statement.

  OPENING STATEMENT OF HON. JIM GERLACH, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Gerlach. Thank you, Congressman Pitts, and thank you 
for the opportunity to be with you here today. I look forward 
to a very educational proceeding here.
    When I had an opportunity to take a look at a few of the 
preliminary materials that your office staff gave us, my eyes 
were greatly opened by a lot of the information that is 
contained in there and certainly what is happening today in the 
horseracing industry. I serve on the Ways and Means Committee 
in the House, and we do not have any jurisdictional 
responsibility over this issue, so I wanted to come and be part 
of this hearing simply to be educated by what is happening and 
to understand better the purpose of your legislation, and I 
think this testimony is going to be very eye opening, as I 
said, to me and I am sure to my colleague, Congressman Meehan, 
as well, and we appreciate very much the chance to be here to 
listen to the testimony and hopefully at some point see your 
legislation move forward to the House floor after your work in 
committee, and I really applaud your leadership in holding this 
hearing and to highlight these issues once again to the 
American people and to the public for what is really going on 
day to day in the horseracing industry.
    So thanks so much for having me and I look forward to the 
testimony.
    Mr. Pitts. The Chair thanks the gentleman and now 
recognizes another colleague from Delaware County, a gentleman 
who was a prosecutor, district attorney and then U.S. Attorney, 
Mr. Pat Meehan, for 5 minutes for an opening statement.

 OPENING STATEMENT OF HON. PATRICK MEEHAN, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Meehan. Well, thank you, Mr. Chairman. I want to thank 
you, Mr. Whitfield, as well for taking the time to have paid 
attention to this issue so significantly, and I think it is 
important. It is timely by virtue of the fact that the Nation 
gears its eyes towards one of the great horseracing prizes 
towards the end of this week, but I think it is particularly 
timely because we once again open up the pages of the New York 
Times and see a front-page story talking about the very real 
issues that are focused around the drug use in the industry as 
my colleague, Mr. Whitfield, talked about, discussing it as a 
chemical warfare. I do serve on the Oversight Committee in 
Congress, but Mr. Chairman, you identified the issue as a 
background as a former prosecutor.
    My eyes are wide open as I look at this but I have to tell 
that as I read the stories in the New York Times, so much of 
the focus appropriately is on the health and welfare of these 
horses, the extent to which in the eyes of many they may be 
being abused in some ways in terms of the over-utilization and 
inappropriate use of the drugs but I think first and foremost 
about the welfare of human beings that are getting on the backs 
of those horses, the jockeys themselves who are being put into 
a circumstance in which arguably one might suggest that there 
is an understanding prior to it on the part of somebody that 
inappropriately affects a horse that they are putting a human 
being into an untenable circumstance, and I am interested in 
learning more about it but the prosecutor in me begins to 
question at what point in time does somebody become criminally 
liable for injuries that occur to another human being by virtue 
of the circumstances related to the inappropriate doping of a 
horse.
    These are very serious matters and obviously one of the 
concerns we have is not to over-regulate, to over-involve 
government in areas but we also have an obligate to protect, 
and I am interested in hearing the testimony of this incredibly 
impressive panel of interested owners and participants in 
industry. Thank you, Mr. Chairman.
    Mr. Pitts. The Chair thanks the gentleman.
    We have two panels today, and now we will go to the first 
panel. We have four experts from the racing industry: Mr. Gary 
Stevens, a retired jockey; Mr. Arthur Hancock, the owner of 
Stone Farm; Mrs. Gretchen Jackson, the owner of Lael Stable; 
and Mr. George Strawbridge, the owner of Augustin Stable. We 
are happy to have all of you with us today.
    We will not confine your opening remarks to 5 minutes. You 
may have the amount of time you need to present your testimony. 
Mr. Stevens, you are recognized first.

  STATEMENTS OF GARY STEVENS, HALL OF FAME JOCKEY; ARTHUR B. 
      HANCOCK, III, THOROUGHBRED OWNER; GRETCHEN JACKSON, 
THOROUGHBRED OWNER OF THE 2006 KENTUCKY DERBY WINNER, BARBARO; 
       AND GEORGE W. STRAWBRIDGE, JR., THOROUGHBRED OWNER

                   STATEMENT OF GARY STEVENS

    Mr. Stevens. Good morning. Thank you, Chairman Pitts, for 
holding this hearing this morning.
    I doubt that I will take the 5 minutes because I am going 
to get straight to the point. I would just like everyone to 
know, these are strictly my opinions based on my career and my 
experiences as a jockey for 27 years. I started out at a very 
small racetrack in Boise, Idaho, and was fortunate enough to 
graduate up to the so-called big leagues, and we all know that 
this is a dangerous sport for both horse and jockey. There is a 
danger factor as there is in all sports. But this danger factor 
does not need to have drugs involved. It just makes it that 
much more dangerous.
    I rode a lot of different caliber of horses throughout my 
career, the good with the bad, and when I say the bad, I mean 
the lower class horses. That doesn't mean that they are bad 
horses, just a different class of horses, and horses, like 
humans, have injuries. I realize there is a place for 
therapeutic drugs in training but I do not believe there is a 
place for race-day medications. If a horse needs medication to 
run on, whether it is Lasix, Butazolidin, the list goes on and 
on, and I think Mr. McPeek is going to announce that there are 
99 legal drugs out there in the United States right now, 
allowable. But any time drugs are involved, the danger factor 
goes up.
    And where I am going with this is, I have rode a lot of 
horses over the years. Say they are 8 years old and they had 
raced 45 times, along with those races is going to come wear 
and tear is there is with any athlete, and I would know a lot 
of these horses. I would ride some horses in some cases for 2 
years, and they were sort of like your old favorite car where 
you knew every nook and cranny about those horses. They didn't 
have the prettiest way of going but that is just the way they 
moved. I didn't mind riding those kind that could feel it. One 
of the scary things is when one of these horses would be 
claimed, they would go to a different stable, and the first 
time I would climb on their back, they would jog off like 
Secretariat, and that is when it was scary, and those were the 
horses that nine times out of ten if one broke down, that was 
the one that broke down. And yes, a jockey does have the choice 
to ride these horses or ride for particular trainers. What a 
jockey does not have control of is if that particular horse is 
in the same race that you are in after you told them that you 
don't want to ride it. And we are not just talking about this 
specific horse that may break down and the jockey who is on its 
back. You are talking about multiple horses and multiple 
jockeys which may be affected by a horse breaking down and 
going down.
    I know that the industry, a lot of horsemen complained a 
couple years back when we were in the process of phrasing out 
anabolic steroids. Well, we did it. The Jockey Club was key in 
getting that done, and I have full confidence that the Jockey 
Club will do what is right and sign on to this bill and we will 
have federally mandated rules throughout the United States 
instead of every State having different drug policies and 
different thresholds. It is black and white. My opinion, if 
there is no race-day medication, you are going to solve a lot 
of problems. Thank you.
    [The prepared statement of Mr. Stevens follows:]

    [GRAPHIC] [TIFF OMITTED] T8795.001
    
    [GRAPHIC] [TIFF OMITTED] T8795.002
    
    [GRAPHIC] [TIFF OMITTED] T8795.003
    
    [GRAPHIC] [TIFF OMITTED] T8795.004
    
    [GRAPHIC] [TIFF OMITTED] T8795.005
    
    Mr. Pitts. The Chair thanks the gentleman and now 
recognizes Mr. Hancock.

              STATEMENT OF ARTHUR B. HANCOCK, III

    Mr. Hancock. Mr. Chairman and distinguished members of the 
subcommittee, thank you for holding this hearing today and for 
your consideration of legislation to ban race-day medications 
in horseracing.
    My name is Arthur Hancock and my family has been breeding 
racing horses since the 1870s. As a fourth-generation horseman, 
I am here to try to guarantee that horseracing will be a viable 
sport for my children and grandchildren from the next 
generations.
    At one time, Thoroughbred racing was the number one 
spectator sport in America. It was held in high esteem by the 
general public, and there was excitement and anticipation all 
across America about who would win the Kentucky Derby or maybe 
even the Triple Crown. There was also a superstar to follow 
like Seabiscuit, Man O'War or Secretariat, who raised the level 
of enthusiasm for the sport.
    Back then in the 1950s, horses averaged 45 lifetime starts 
in their careers. Now it is down to a lifetime average of 13. 
This is an astounding drop of 71 percent. And since genetics 
change every million years or so, according to Charles Darwin, 
what could be the cause of this drastic increase in the 
unsoundness of the Thoroughbred racehorse?
    While the number of starts has drastically decreased, the 
rate of breakdowns and fatally injured horses has increased. 
Moreover, the rate of injured jockeys has increased along with 
the loss of public confidence for the sport. Given that the 
track surfaces are even safer today, we would naturally expect 
that our horses would have more lifetime starts and be sounder 
than their predecessors.
    So what is the difference today in our industry that didn't 
exist in the past? What could be the culprit that is 
undermining the soundness of our horses? The answer is clear. 
The increase of breakdowns and unsoundness parallels the spread 
of Lasix as a race-day drug. Today, only 5 percent of all 
horses are bleeders and yet almost 100 percent receive Lasix on 
race day. There is only one reason for this. Lasix is a 
powerful diuretic that allows a racehorse to shed 20 to 30 
pounds at race time, thus making it a performance-enhancing 
drug. We weigh jockeys meticulously to see if there is a pound 
difference, and here this drug allows them to lose 20 to 30 
pounds, and we in the horse business say that a pound at a mile 
is a length. So, you are talking about several lengths.
    In addition to Lasix, nearly 100 percent of all racehorses 
run with Butazolidin, Ketofen, or Banamine along with other 
``therapeutic drugs'' in their systems. And by the way, the 
cost of Lasix on race day is around $100 million, just Lasix 
alone for race-day Lasix for a year. And that doesn't count the 
jugs and all the after medications that they receive after the 
races to make them more comfortable, which is fine.
    Sadly, the financial interests of those who administer 
drugs and the lure of enhancing performance have become the 
drivers of our industry. Recently, the Thoroughbred Owners and 
Breeders Association took a poll, and 75 percent of the owners 
and breeders voted to stop race-day drugging. The fans have 
also said they don't want it. According to the McKinsey report, 
75 percent of the population regards racing as a sport in which 
drug use runs rampant and we are also losing 4 percent of our 
fan base every single year. Without fans, we are all out of 
business.
    So if the owners don't want drugs and the fans don't want 
drugs, who does? Well, the veterinarians and the big drug 
companies want them. Why? Drugs are money, big money. The 
needle goes in, the money comes out. They make the money and 
the industry and the breed are destroyed in the process. Fans 
leave, foreign buyers leave, owners leave. We become obsolete, 
a thing of the past, a once-great disgraced industry.
    With precipitous declines in both attendance and wagering 
at our tracks, compounded by plummeting bloodstock sales, it is 
apparent that Thoroughbred racing is at a crossroads. The 
industry has suffered a loss of confidence and respect with its 
fan base and the general public. Countless reports of trainers 
being charged with doping their horses coupled with the 
destruction of horses due to horrific injuries on the track 
cast our sport as something other than beautiful and noble.
    Today, fans and casual observers who have historically 
supported our industry don't want to be associated with the 
abuse of animals and the widespread cheating by the use of 
performance-enhancing drugs. We should also remember, abused 
horses equate to abused jockeys, injured jockeys and maimed 
jockeys.
    Recently, the Kentucky Racing Commission tried to do away 
with race-day drugs but failed because of the fear that other 
States would not follow suit and that Kentucky would be driving 
a nail in its own coffin because horses would move to other 
States with more lenient drug rules. There is no uniformity in 
the 38 racing jurisdictions. People are at odds with one 
another. Recently, when some of us were critical of TOBA for 
not pushing ahead with drug reform, a very high ranking member 
of the Jockey Club called me and accused us of shooting our own 
troops. All we are really trying to do is rally the troops to 
protect our horses, to protect our jockeys and to protect the 
integrity of our sport.
    However, we cannot do this alone. It is my hope that the 
Jockey Club and other various industry organizations will get 
behind the Interstate Horseracing Improvement Act. This is a 
strategy that will save our industry.
    In conclusion, why has the horse industry been talking 
about stopping race-day medication for decades with few 
tangible remedies? The answer is because there were no remedies 
until now. That remedy is the amendment to the IHA called the 
IHIA, the Interstate Horseracing Improvement Act. If anyone has 
a better or more workable plan, please present it. All we want 
to do is stop this.
    For years, all we have had is hot air and hope. Our 
industry in partnership with the federal government gave us 
simulcasting. Now let us guarantee that races being simulcast 
to the United States are run free of race-day medication.
    Thank you for your consideration of this issue which is so 
vitally important to our industry, and we appreciate it.
    [The prepared statement of Mr. Hancock follows:]

    [GRAPHIC] [TIFF OMITTED] T8795.006
    
    [GRAPHIC] [TIFF OMITTED] T8795.007
    
    [GRAPHIC] [TIFF OMITTED] T8795.008
    
    [GRAPHIC] [TIFF OMITTED] T8795.009
    
    Mr. Pitts. The Chair thanks the gentleman for his opening 
statement and now recognizes Mrs. Jackson for an opening 
statement.

                 STATEMENT OF GRETCHEN JACKSON

    Mrs. Jackson. Mr. Chairman, Mr. Whitfield and members of 
the committee, thank you for the opportunity to testify today 
and for your interest in the important issue of medications, 
drugs in horseracing. I am Gretchen Jackson. I am a 
horseperson. I have been on a horse as a small child, as a 
teenager and as an old lady. I am passionate about the horse. I 
am the wife of Roy Jackson, and together we own Lael Stable. 
Roy grew up around horses and his parents raced. We bought our 
first racehorse in 1975 and have been involved in the training, 
racing and breeding ever since. This is 37 years in racing.
    When we got involved with the industry, it was absolutely, 
positively unheard of to have a 2-year-old on Lasix and not the 
norm for an older horse. Today, it is the exact opposite.
    I also worked for various educational agencies and schools 
having been trained to teach coping skills to young children 
with emotional problems, and one of the sessions involved 
playing a video of a drug-dependent society. It used to get a 
lot of laughs every time because of the silly mistakes people 
would make while under the influence. Well, now it is not a 
laughing matters. Drugs have insidiously penetrated into the 
world of horseracing, endangering both horse and rider. By 
endangering, I mean threatening their very lives. Helmets and 
vests are great protection but not always. No leg wraps can 
save the racehorse who has been given performance-enhancing 
drugs instead of time off to heal.
    Racing demands speed, speeds up to 40 miles an hour. This 
means only the fittest and soundest horses should be competing. 
Many horses use a vet to enable a less than sound horse to 
compete by giving the horse performance-enhancing drugs. Vets 
profit from this service and trainers can do this because there 
is less than a handful of certified testing labs that are able 
to test accurately out of the 19 in operation. I understand 
that there are more drugs being used in horses that are not 
known, not detectable than the ones that they can identify. 
Many tracks use less-accurate testing labs to save money. Both 
horse and jockey face unknown danger under these conditions.
    Roy and I raced a wonderful homebred horse named Barbaro. 
He gave us goosebumps every time he raced. He ran his heart out 
in the Kentucky Derby to win by six lengths. What a thrill it 
was to be in the winner's circle with three of our four 
children and their families, then going on from there to the 
Kentucky Derby Museum where we received more accolades while 
the derby was played over and over again on the oval ceiling. 
Our euphoria only lasted 2 weeks as Barbaro broke down, broke 
his sesamoid joint right in front of us only 150 feet from the 
starting gate. We ran down onto the track to be with him. There 
is only one way to describe what it is like down there standing 
by a seriously injured horse. It is heavy. The air is just 
filled with grief. That scenario is all too easy recall as it 
has been printed on my mind's eye and in my heart. These are 
not forgotten by the fans. Many never come back to the races.
    Drugs present in the racehorse have created havoc with the 
betting fan too. Just go to a betting parlor and listen to the 
disgruntled fans. They are trading the latest secrets, whether 
true or false, that concern trainers and their appeal to the 
bettor. Many are wary and do not bet.
    So many of these horses and jockeys could be safer if drugs 
were not a part of racing. It is one thing to use drugs 
therapeutically after the race. It is another thing to mask 
problems before the race. The way racing is going now, it is a 
no-win situation for everybody, for the horse, the jockey, the 
owner, the fan and the industry. We need to regain the honesty, 
beauty and the sport of racing, allow the horse to be a horse. 
Horses are vulnerable. They have no say in way their birth 
takes place or any of the how their life plays out. They only 
have us. It is time we are the best us we can be before we lose 
our dying sport.
    I speak for a number of people who are either directly 
involved with horseracing or simply love watching the sport and 
believe that to preserve its future and to ensure the safety of 
the horse and jockeys, we must move forward to institute a ban 
on race-day meds. Roy and I stand ready to help you deliberate 
on this most important matter.
    Thank you, Mr. Chairman, for allowing me to testify today.
    [The prepared statement of Mrs. Jackson follows:]

    [GRAPHIC] [TIFF OMITTED] T8795.010
    
    [GRAPHIC] [TIFF OMITTED] T8795.011
    
    [GRAPHIC] [TIFF OMITTED] T8795.012
    
    Mr. Pitts. The Chair thanks the gentlelady and now 
recognizes the gentleman, Mr. Strawbridge, for an opening 
statement.

            STATEMENT OF GEORGE W. STRAWBRIDGE, JR.

    Mr. Strawbridge. Thank you, Chairman Pitts and members of 
the subcommittee for holding this hearing and inviting me to 
testify today. I am George Strawbridge. I breed and race 
Thoroughbreds, and not only in America but in Europe as well.
    It is quite extraordinary what has happened to Thoroughbred 
racing in this country where over 75 percent of the population 
regards racing as a sport in which drugs run rampant and have 
obviously a very negative perception of the sport. This year, 
in a front-page feature in the New York Times, it described the 
horrors of racing as a result of extensive drug use. The 
article was quickly followed by a lead editorial in the same 
paper which condemned ``the casual and continual mistreatment 
of vulnerable overmedicated and ultimately disposable 
athletes.'' The editorial described how horses were forced to 
run with debilitating ailments, and concluded that horseracing 
was a disreputable sport. I honestly have never heard of 
another sport in the United States described as disreputable. 
These words such as ``mistreatment'' and ``disreputable'' are 
very powerful words, and as such, they will have a long life.
    How did we get in this deplorable situation? I think the 
first reason is that in this country there are no significant 
consequences for doping horses. This unfortunate fact contrasts 
with the attitude of all other major racing countries. Just 
this past year, a very well known jumping trainer retired from 
training. Why? Because he received a 4-year suspension, not a 
week suspension, not a 2-week suspension, but a 4-year 
suspension, and so he retired as a trainer. Why such a harsh, 
severe penalty? The BHA, which is the British Horseracing 
Authority, a national organization that controls racing, wrote 
because they wanted to demonstrate to racing stakeholders that 
reckless disregard of equine welfare would not be tolerated. 
Why it is tolerated in this country, I will leave up to your 
imagination. This punishment is in contrast to the slap on the 
wrist that our trainers get.
    Another consideration is that the use of drugs in the 
United States has absolutely no stigma or shame attached to 
them. In fact, people who use them are given racing's highest 
honors in the form of Eclipse awards. Michael Gill, a notorious 
owner, was given an Eclipse award for being the leading owner 
of the year or the owner of the year. During the same year, 
there were three trainer finalists for trainer of the year that 
were all under suspension. Extraordinary. I asked Cornelius 
Uboh, who by the way was going to contribute to this gathering 
but was talked out it it, at any rate, I asked him last year--
he is the head chemist, by the way, from the University of 
Pennsylvania Laboratory, if we were winning the war on drugs as 
some were suggesting. His answer was an emphatic no. He pointed 
out that we were not only losing but losing badly. He said if 
they discovered a test for one drug, two new ones came on the 
scene. He also mentioned that trainers could easily order non-
detectable drugs on the Internet. He told me about a non-
detectable drug called dermorphin, which was not 10 times more 
powerful than morphine like the drug Dutrow was caught using 
two falls ago but a thousand times. This is stronger than 
morphine, a thousand times stronger than morphine. In short, it 
was a very, very discouraging conversation.
    So what is our hope for the future? In a word, our hope for 
the future is change. We must change, we can change, and the 
best news is that we have slightly started to change. Thank 
goodness for the Breeders Cup gradually changing to drug-free 
racing. But we must do more. Luckily, we have excellent role 
models in the rest of the world. These role models adhere to 
zero drug tolerance. These countries have rising attendance, 
rising handle and rising prices for secondhand horses brought 
to race in Asia. In Great Britain, racing is the second most 
popular sport after soccer and is a national institution. In 
Australia, the running of the Melbourne Cup is a national 
holiday. In the rest of the world, racing has full fields and 
national recognition.
    Look at the horses these models have produced, see the 
stars, Frenicle, Black Caviar, just to name a few. Also, look 
at the turf races in the United States last year. They were all 
won by foreign horses. In fact, in the Canadian International, 
foreign horses were the first four finishers. And that is all 
with their second string, not even the Frenicles and things 
like that. This is their second string.
    I know that emulating the successful model in the rest of 
the world will be a big start towards respecting the star of 
our sport. We need to stop treating the Thoroughbred as a 
commodity. We need to show the public and our fans, such that 
there are, that we care and that we are a clean and legitimate 
sport. The Thoroughbred never, and I repeat, never, lets you 
down. My hope is that we stop letting this noble animal down.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Strawbridge follows:]

    [GRAPHIC] [TIFF OMITTED] T8795.013
    
    [GRAPHIC] [TIFF OMITTED] T8795.014
    
    Mr. Pitts. The Chair thanks the gentleman.
    That concludes the opening statements. We will now go to 
questioning and answers, and I ask the members to please comply 
with the 5-minute rule. I will begin questioning and recognize 
myself for 5 minutes for that purpose.
    First of all, Mr. Stevens, do you think, does the public 
know that horses are drugged and therefore conclude no level 
playing field exists in the horseracing industry?
    Mr. Stevens. Yes, that is my belief. It used to be when I 
would get on an airplane, a redeye flight to fly to New York, 
the first question I was asked is, have you ever rode in the 
Kentucky Derby, and if it wasn't that, they would say is it 
fixed. So I would go through my spiel of why it is not fixed. 
Now the question asked, don't they drug all those racehorses?
    Mr. Pitts. Are currently employed jockeys afraid to express 
their opinion on banning race-day meds for fear some trainers 
or owners opposed to a ban will no longer employ them?
    Mr. Stevens. I am just going to say that I believe that may 
be the case but I cannot speak for these riders, but that is 
the appearance it gives me, yes.
    Mr. Pitts. One other question. Do racetrack vets regularly 
identify and scratch lame horses before the start of a race?
    Mr. Stevens. We hope so, but that is not always the case, 
sir.
    Mr. Pitts. Mr. Hancock, we discussed many different 
conflicting and overlapping organizations and associations in 
the industry. In your view, are there particular groups that 
have been an impediment to reforming the sport?
    Mr. Hancock. Yes, sir. I think--I would like to preface 
this by saying I have a lot of friends who are veterinarians 
and they are good people, but this culture has evolved over the 
years. I worked at the racetrack when I got out of college for 
a year in 1966, and for a top trainer in the country, and the 
only time the veterinarian would come around the barn was if we 
had a temperature or colic or to check the horse on race day, 
but yes, sir, I think that is the case.
    Mr. Pitts. In your opinion, why have there been no Triple 
Crown winners in the last, what, 9 years?
    Mr. Hancock. It is longer than that.
    Mr. Pitts. Longer than that?
    Mr. Hancock. Yes. I believe that the horse gets Lasix, say 
he runs in a prep race before the Derby and in a race before 
that he gets Lasix. He gets it on Derby day. Every horse in the 
Derby runs on Lasix as well as, you know, Banamine or 
Butazolidin and some of the others that Kenny McPeek will talk 
about, and they lose the 20 or 30 pounds and it dehydrates 
them, it takes them a few days to recover. Then 2 weeks later 
they go to the Preakness. They run in the Preakness with Lasix, 
and by the time the Belmont rolls around 3 weeks later, I just 
think it takes a lot out of them. I am sure of that. And I 
believe that is a big reason why we haven't had a Triple Crown 
winner. And if a sport doesn't have stars, you know, to follow 
like I was talking about, Secretariat and a lot of other 
horses, you lose your fans.
    Mr. Pitts. Thank you.
    Mrs. Jackson, are most owners not supporting the ban of 
race-day medication?
    Mrs. Jackson. I think so.
    Mr. Pitts. Why? Would you respond to that?
    Mrs. Jackson. I believe so just because Arthur has come out 
with a list, and you have got many, many owners that have 
signed up requesting trainers not to use race-day meds, right?
    Mr. Hancock. Right. There are 411, I think the last count, 
of top--there are owners, trainers, that have signed put to get 
rid of this.
    Ms. Jackson. I think there is a significant amount.
    Mr. Pitts. Thank you.
    Mr. Strawbridge, when you import horses from Europe, do you 
expect those horses to be put on Lasix because they are now 
racing in the United States?
    Mr. Strawbridge. Yes, that is what happens, and that is----
    Mr. Pitts. Why the switch?
    Mr. Strawbridge. Because Lasix is a performance enhancer. 
It is not only a performance enhancer because of the loss of 
weight but it is more a performance enhancer because it is like 
blood doping as an animal gets dehydrated. There has been two 
studies in 1998 at the University of Pennsylvania that 
definitely conclude that there was performance enhancement as a 
result of using Lasix, and a more thorough one regarding 16,000 
horses at the University of Chicago the next year in which it 
conclusively proved that it was a performance enhancer, and the 
main reason it was is because it would delay the onslaught of 
fatigue and increase the oxygen that would be going to the 
muscles. So it is a performance enhancer. As my friend John 
Gossen says, who comes over here and wins the Breeders Cup race 
with a great deal of regularity, when in Rome, do as the Romans 
do, and Aiden O'Brien after a year of trying to race without 
Lasix and not winning a Breeders Cup race--he has terrific 
horses, by the way, and said no, I am going to use Lasix on my 
horses, and they all seem to win as a result of using Lasix.
    Mr. Pitts. Thank you. My time is expired, but I wanted to 
ask you, in your experience, what is America's current 
reputation in the European horseracing community?
    Mr. Strawbridge. It is absolutely dismal. You look at the 
American horses. We sent a champion over to Dubai. The odds in 
this country were, you know, anywhere from 3:1, 5:1, and you 
look at that fair and the Europeans betting on American horses 
and the odds were 25:1 to 50:1. They say oh, they are coming 
over and running without drugs so therefore they are not as 
good and as effective and so that is a fact. I can't sell an 
older horse to race in Hong Kong from this country selling over 
seven horses to Hong Kong. It is because they are tainted if 
they run in this country.
    Mr. Pitts. The Chair thanks the gentleman and now 
recognizes the Vice Chairman of the Health Subcommittee, the 
gentleman from Texas, Dr. Burgess, for 5 minutes for 
questioning.
    Mr. Burgess. Thank you, Mr. Chairman.
    Mr. Strawbridge, if we can stay on that subject for just a 
moment, what happens when the converse of that situation 
occurs? You referenced a horse that has raced in the United 
States now going over to Dubai, presumably performance 
enhancers are withdrawn and the horse is less capable. If an 
owner in Dubai or one of the European countries comes over here 
to race, are they then more likely to use performance-enhancing 
methods in order that their horses can compete?
    Mr. Strawbridge. Well, they will only use what is 
permissible in this country, what is legal in this country, and 
since Lasix is legal, that is what they will give their horses, 
you know, to race on, and I think it has been proven that 
first-time Lasix use is an enormous advantage. At least that is 
what the bettors seem to think. And that is what happens when 
they come and race in this country.
    Mr. Burgess. So if there is a horse that has been of 
considerable renown and repute in a foreign country, that horse 
coming over here with the more permissive performance-enhancing 
compounds is actually going to have an advantage over the horse 
that regularly is given a performance-enhancing compound?
    Mr. Strawbridge. Well, yes, I think he would. There was a 
very curious group one race in Chicago last year in which the 
Aga Khan came over and he is adamantly opposed to any 
medication and has fired trainers that have been caught with 
Bute or anything like that and was running against a Kumor 
horse, who was first time Lasix, and they had a terrific battle 
but the Kumor horse won because at least the bettors thought he 
was using Lasix for the first time. There was a matter of a 
head difference.
    Mr. Burgess. I will just have to admit to some naivete. I 
am a physician by background. Of course, Lasix is a fairly 
common compound used in treatment but I was not aware that it 
was a performance-enhancing compound or the degree to which it 
is apparently used. For anyone on our panel, how it is 
administered? How is the Lasix actually given to the horse?
    Mr. Pitts. Who would like to respond? Mr. Stevens?
    Mr. Stevens. IV or intramuscular, either one, with a 
needle.
    Mr. Burgess. So if it is given intravenously, is that 
something that a layperson can do or does that require a 
professional to administer it?
    Mr. Stevens. It is illegal for a trainer to administer any 
medication on the racetrack intravenously, so a vet would have 
to do it, and in the State of New York, when Lasix is 
administered, it is administered by a New York State vet.
    Mr. Burgess. And it is legal to administer it before the 
race starts. Is that correct?
    Mr. Stevens. Yes, that is the idea. I believe is 2 hours 
before, 3 hours--it is 4 hours, 4 hours before.
    Mr. Burgess. Now, Mr. Stevens, in your testimony you said 
that you can sometimes tell, or maybe I misunderstood, maybe 
you can always tell if a horse has been exposed to a 
performance-enhancing medication. Did I get that correct?
    Mr. Stevens. Yes, you did, sir, and the reason for that, as 
I said, you know, you've got a truck, and I know this might be 
a bad comparison, but if you have got a car that has got a 
wobbly tire but it is always wobbly and it gets to where you 
are going pretty good and all of a sudden you get in that same 
car the next day and it is smooth as silk, you know somebody 
has messed with it. I mean, it didn't just change overnight 
when they are 7, 8 years old. So yes, you know that something 
has gone on.
    Mr. Burgess. A good and experienced rider can tell that 
something has changed. Is that correct?
    Mr. Stevens. Yes, that is correct, and there are times that 
a rider will feel something and the horse doesn't finish that 
well or he gallops back sore after the race and you may tell 
the trainer hey, he didn't feel just right today, and all of a 
sudden you see the horse back in 2 weeks later and it has got a 
different jockey on it, and it is very common for a rider to go 
up to another jockey who is now riding that horse and say hey, 
watch yourself, man, this horse didn't feel that good, and if 
it is a young rider, inexperienced, he doesn't know what he is 
supposed to feel anyway.
    Mr. Burgess. OK. And that is actually I guess where I was 
going with this. You have the ability to say I am not going to 
ride that horse but you don't have an ability to identify that 
horse to someone in authority and say this horse is behaving in 
a way that makes me uncomfortable riding, therefore I would 
like someone to investigate?
    Mr. Stevens. Yes, you can do that, and that is what I would 
advise to every jockey in the United States. If you ride a 
horse that you feel is unsound or he pulls up unsound, a lot of 
times I would tell the State veterinarian at whatever 
jurisdiction I was riding, hey, you guys need to take a look at 
this horse before he runs again, but that doesn't always 
happen. A lot of these jockeys, I believe because it is so 
competitive, they are afraid to say anything to anyone. They 
turn their cheek. It is not because they want to but it is 
because they afraid of losing their job.
    Mr. Burgess. But then you as a jockey, you could be put at 
risk by having an unsound horse in the pack that is running on 
that track, even though you are not the rider. Is that correct?
    Mr. Stevens. That is correct. If you have a horse in front 
of you, the horses are very tightly bunched when they race. 
They race in packs. They are herd animals. If the lead horse 
goes down, more times than not, several horses fall.
    Mr. Pitts. The gentleman's time is expired.
    Mr. Burgess. Thank you, Chairman.
    Mr. Pitts. The Chair thanks the gentleman and now 
recognizes the gentleman from Kentucky, Mr. Whitfield, for 5 
minutes for questions.
    Mr. Whitfield. Thank you for your testimony this morning.
    You know, Mr. Stevens, you are a Hall of Fame jockey, and 
Mr. Hancock, you and your family have been involved with many 
Derby winners and others, and Mrs. Jackson, you also, and Mr. 
Strawbridge is one of the leading steeplechase as well as 
Thoroughbred owners as well. What is wrong with just having a 
horse run on natural abilities without anything? What is the 
problem with that? I mean, it is my understanding that other 
jurisdictions around the world that on race day they are 
supposed to be free of medications. So what is wrong with 
horses running on natural ability? Mr. Stevens?
    Mr. Stevens. Nothing. I would prefer that. And I had the 
pleasure to enjoy that with my stays in Europe. I rode for what 
I consider two of the greatest trainers in the world, Sir 
Michael Stoute and Andre Fabre in France, and I had to pleasure 
to ride for Mr. Strawbridge with some of his horses in Europe. 
I rode for him here and in Europe. And I can tell you this--and 
I rode extensively in Hong Kong, Ireland, England and France 
and Germany, but I never had a horse break down in one of these 
foreign countries with me. I had some pull up bad after the 
race or take a misstep with me but I never had a horse break 
down with me. Now, that is an amazing stat right there. And it 
was pure and it was a pleasure because when I galloped down to 
the start, you felt what there was. I mean, if a horse, if you 
knew he wasn't himself that day, if he felt different than he 
had in the morning workouts, you scratched him. You would get 
him withdrawn. But it is a great feeling of confidence to know 
you were going down there on a horse that was feeling 
everything 100 percent of what their physical abilities were.
    Mr. Whitfield. Mr. Hancock, do you have any comment on 
that?
    Mr. Hancock. Well, I think the rest of the world runs 
without it, and we are the rogue nation basically. We are the 
only country. They do use some Lasix in South America, which 
they are getting rid of right now, I understand.
    Mr. Whitfield. And Mrs. Jackson, you said that at one time 
there was no Lasix or any other drugs in the United States. Is 
that right?
    Mrs. Jackson. Yes. I believe New York State was the last, I 
believe, to allow it. I think it is a matter of time. If people 
want their horse--it is money and if they have to give them 
natural time to heal, that they don't want to take that time. 
They want to get the money.
    Mr. Whitfield. Mr. Strawbridge, do you have any comment?
    Mr. Strawbridge. Well, absolutely it is possible because as 
Arthur says, they run, you know, without drugs in the rest of 
the world, and there is an enormous appreciation for the 
animal, the Thoroughbred horse in the rest of the world as 
there is in this country, and that is why it is such a shame. 
The Thoroughbred racehorse, God's noblest creature, is not 
running on their natural ability the way they are in the rest 
of the world, and that is why the negative perception is there.
    Mr. Whitfield. Mr. Stevens, have you known any jockeys that 
suffered catastrophic injuries because of accidents on the 
track?
    Mr. Stevens. About every jockey I know. My brother was 
airlifted out of Canterbury Downs two summers ago. He was on a 
filly that he entered the stretch four lengths in front and she 
broke both front legs simultaneously and the horse landed on 
him. Four other horses ran over the top of him and he punctured 
both lungs, broke all of his ribs, broke his sternum and his 
pelvis in that fall, and I am hard pressed to think of any 
jockey that hasn't had a bad injury, and unfortunately, neck 
injuries and back injuries to be fairly common injuries. We had 
two jockeys in a short period of time. Rene Douglas is a 
quadriplegic. Eiber Coa, thank God, miraculously he is walking 
now. But the list of paralyzed jockeys goes on and on and on.
    Mr. Whitfield. Just one other question, if I may, Mr. 
Chairman.
    Are painkillers regularly administered to these horses on 
race day or is that illegal in most jurisdictions, or do you 
know?
    Mr. Hancock. I know that every State has a different time 
frame but Bute or Banamine, there are 24 and 48 hours pre-race 
day. Lasix is the only legal drug that can be administered on 
race day.
    Mr. Whitfield. Mr. Strawbridge, you were talking about 
something like a hundred times more powerful than morphine. Is 
that right?
    Mr. Strawbridge. Yes, there was a drug a hundred times more 
powerful than morphine, and dermorphin is 1,000 times more 
powerful than morphine, and for those of us that have had 
morphine to kill pain, that will kill the pain.
    Mr. Whitfield. Thank you.
    Mr. Pitts. The Chair thanks the gentleman and now 
recognizes the gentleman from Chester Country, Mr. Gerlach, for 
5 minutes for questions.
    Mr. Gerlach. Thank you.
    Following up on that, any of the panelists, I am trying to 
make sure I understand exactly in talking about the 
performance-enhancing aspect of the drugs, I am picking up that 
there are two aspects here. One is the diuretic that allows for 
reduction in weight of the horse at race time that I then 
assume is better so that the horse runs faster because the 
horse is of less weight and therefore can put in a faster time, 
but that Lasix is not used necessarily to mask an injury. Is 
that correct? So the Lasix is used to reduce weight to create a 
faster time going around the track. Is that basically the 
purpose of Lasix?
    Mr. Strawbridge. No, the purpose of the use of Lasix is 
to--several purposes, but at any rate, to lessen the chances 
that a horse will bleed. They think that by dehydrating the 
animal, he will have a less chance of bleeding. But we know 
from statistics and past measurements that only 5 percent of 
the horses bleed. They all bleed to some extent, but when I 
talk about the 5 percent, that is serious bleeding. And the 
thing to remember, Mr. Gerlach, is that Lasix is not allowed 
for humans to run on. I mean, when human athletes compete in 
track and field, their whole objective is to hydrate themselves 
because of the dangers of dehydration.
    Mr. Gerlach. And so the other drugs that you make mention 
of, those are to mask injury or to mask a condition of the 
horse that while it is still able to run it is in a weakened 
condition or it is in a pained condition and therefore that 
masks that horse in hopes that it gets around the track in a 
good time before some further injury occurs to it. Is that 
right?
    Mr. Strawbridge. Correct.
    Mr. Gerlach. And so there is a patchwork of laws and 
regulations around the various States that dictate what you can 
and can't use on race day?
    Mr. Strawbridge. Yes, and there is also numerous drugs, as 
Dr. Uboh was saying, that are non-detectable. So if they are 
non-detectable, they can be given without any detection or any 
consequences, and they definitely are performance enhancing 
because they cover up pain such as dermorphin would and there 
are muscle relaxers, they have agents of blood doping, you 
know, to increase the oxygen supply to the muscles and, you 
know, they are performance enhancing.
    Mr. Gerlach. Mr. Stevens, when you line up then in the gate 
on race day, you don't know the other seven, eight, nine horses 
if they have anything in their systems that are masking an 
injury that some trainer is taking a chance on won't reoccur or 
won't show up during the time of the race, you don't know as a 
jockey at that point in time so what is the situation in terms 
of your mindset? Why do jockeys, if they don't know the other 
horses may have certain enhancements given to them or something 
that is masking their injuries, what is the economic pressure 
that a jockey has to participate nonetheless in that race not 
knowing the condition of the other horses?
    Mr. Stevens. Well, believe it or not, I think a lot of it 
is peer pressure that, hey, if one pilot won't fly the plane, 
we will find a pilot that will fly the plane. As I said before, 
there is always a danger factor in horseracing, and when I was 
active and riding consistently in California, that was the 
circuit that was on, there were certain level races that I 
didn't ride because I knew that horses were changing hands a 
lot, in other words, they were claimed in claiming races, and 
there were certain trainers that I would not ride for, either 
because they either didn't know that they were running sore 
horses or they didn't care, and maybe a combination of both. 
But it tended to be the same trainers that I suspected of doing 
things, and I chose not to ride. I was fortunate enough that I 
didn't have to run against a lot of their horses because they 
were lower classes and I chose not to ride those races because 
of the risk factor.
    Mr. Gerlach. Thank you. I yield back.
    Mr. Pitts. The Chair thanks the gentleman and now 
recognizes the gentleman from Delaware County, Mr. Meehan, for 
5 minutes for questions.
    Mr. Meehan. Thank you, Mr. Chairman, and thank you to this 
very distinguished panel for your presentation here today. When 
I look at a very complex industry, I see 75 percent of the 
horse owners are looking at this and suggesting that we need to 
address the issues, and more than 75 percent of the fans, yet 
we have horse owners, casino owners, the horseracing 
commissions, we have trainers, we have veterinarians, we have 
drug companies that are producing these as testimony has been 
made today, we have the jockeys, we have fans who are feeling 
that they really can't trust an industry with such a tradition 
and history that goes back to the days of my Latin studies. Who 
is in charge? Mr. Strawbridge, who is really in charge?
    Mr. Strawbridge. Well, that is the problem, Mr. Meehan. 
There is nobody in charge. We have a bunch of alphabet 
organizations, and the result of their input and discussions 
and ideas is to produce, as the Bible says, the Tower of Babel. 
That is all we have in this industry. There is no spokesman. 
And I think you hit the nail on the head. What everybody says, 
the only way things will change, things will reform is if we 
have a national governing body the way they have in England, 
the way they have in France, they way they have in Hong Kong.
    Mr. Meehan. What is preventing that now?
    Mr. Strawbridge. Oh, the Jockey Club. Arthur, you remember 
this. When was the Jockey Club told that they couldn't govern 
racing because they were a private organization? They don't 
have the authority. The authority has to come from the federal 
government to give a national organization the authority to 
make rules, enforce rules and direct racing. That is what has 
to happen because the States--there was an example, the RCI, 
another alphabet organization, Racehorse Commissioners 
International, they wanted to have a compact, which made sense. 
They were going to set the rules and require through this 
compact enforcement of the rules, but there was an opt-out 
provision and all of a sudden it would not only start but----
    Mr. Meehan. So if one State won't abide by the rules, we 
have a race to the bottom, not a race to the finish line.
    Mr. Strawbridge. And there is major difference as far as 
punishments are concerned or enforcement, and as Dr. Uboh said 
when I asked him, are you getting more and more positives, he 
said yes, and I said, well, where is the enforcement, and he 
said we can only identify the positives, the enforcement is up 
to the State racing commission.
    Mr. Meehan. May I explore that for a moment? Mrs. Jackson, 
you discussed the idea of the various participants in this and 
your concern about drugs endangering jockeys, among others. It 
is counterintuitive to me. I think about a veterinarian as 
somebody almost a physician trained to take care of the welfare 
of a horse. How is it that we have veterinarians who are 
authorizing utilization of these drugs into horses where there 
has to be the recognition of the understanding that it cannot 
be in the best interest of a racing horse to be on these kinds 
of drugs prior a race? At least the testimony clearly supports 
that.
    Mrs. Jackson. In my opinion, I think the veterinarians have 
become twisted in their belief that they are helping the horse 
and they are helping the horse for 2 hours maybe and they are 
very nearsighted. They are also receiving money for the 
injection, and if they tell the owner or the trainer that this 
horse needs time off, they don't receive any income but they do 
receive an income from inoculation, and I think that they--I 
hope that in their minds they are thinking they are helping the 
horse. I hope that that is where they are coming from but it is 
so nearsighted.
    Mr. Meehan. Mr. Stevens, it is an honor to have you here 
today along with this distinguished panel of owners as a Hall 
of Fame jockey, but when you talk about your colleagues who are 
not able to walk here today like you are, I mean, who do you 
hold responsible for putting the jockeys in the position that 
they are in where again I go back to the words that were used, 
reckless disregard for the welfare of not only the animal but 
by connection the human who is riding it?
    Mr. Stevens. Well, at the end of the day, what they have in 
most jurisdictions that is the same in about every State, it is 
called the trainer's responsibility rule. In other words, 
whenever there is a bad test, and kind of getting back to your 
question, there is very rarely ever a penalty for a vet who 
actually--if there a high Bute or a high Lasix, it is the 
trainer who gets the slap on the wrist, very rarely a vet. So I 
think at the end of the day, a lot of trainers need to take a 
look in the mirror, and when they are complaining about 
racetrack conditions, for instance, a horse breaks down and 
immediately they blame the racetrack. They say, oh, the track 
was bad, and I am not at the track watching horses train every 
single day no matter which jurisdiction I am in, and 
surprisingly, I mean, someone who has been this game for as 
long as I have, you can visually see it. You don't always have 
to be on a horse's back to tell they are sore, and to see some 
horses trot by in the morning or gallop by that you can see 
aren't that good the way they are traveling and then to see 
them run in the afternoon, at the end of the day, it is the 
trainer that is calling the shots to send those horses out 
there on the racetrack.
    Mr. Meehan. Thank you. Mr. Chairman, my time is expired. I 
yield back.
    Mr. Pitts. The Chair thanks the gentleman. That concludes 
the first round of questioning. I would like to have at least 
one follow-up.
    H.R. 1733 has been introduced in the House of 
Representatives by my colleague, Mr. Whitfield, and I hope in 
responding to the follow-up questioning by the gentleman from 
Kentucky, someone will speak as to your thoughts on that bill.
    At this point the Chair recognizes the gentleman from 
Kentucky for 5 minutes for follow-up.
    Mr. Whitfield. Well, thank you. I think Mr. Meehan 
certainly hit the point here, and that is that no one really 
has authority to do much of anything, and I know after the 
Interstate Horseracing Act was passed in 1978, Senator Mack 
Mathias in Maryland spoke to the Jockey Club because this issue 
had come up about the prevalence of drugs on race day, and he 
asked the Jockey Club for the industry to take charge of this 
issue and do something about it, and he said and if not, then 
we are going to try to do something at the federal level. And 
since then, about every 4 or 5 years this issue comes up and 
the Jockey Club, the National Thoroughbred Racing Association, 
all of them have the best intentions but they really don't have 
any authority to punish. Is that your understanding, Mr. 
Hancock?
    Mr. Hancock. Yes, sir. Nobody is in charge, because there 
are 38 States with their own racing commissions and governors 
and they are in charge of their own districts.
    Mr. Whitfield. And it is a complicated issue because this 
Interstate Horseracing Act was given to the racing industry at 
their request for simulcasting, and that is where about 80 
percent of their revenues come. Now, we focused on the 
Thoroughbred today but this act also would apply to quarter 
horse racing as well as standard bred racing, and from the New 
York Times article, I know a lot of that first article focused 
on quarter horse racing. I almost get the impression that 
quarter horse racing may be even more dangerous and less 
regulated than Thoroughbred racing. Would you all agree with 
that, or not? Or do you have any idea?
    Mr. Hancock. I really don't know much about the quarter 
horse.
    Mr. Whitfield. But anyway, this legislation would apply to 
all of it across the board if they use simulcasting. So I might 
also add, Mr. Chairman, that Tom Udall, who is a Democratic 
Senator from New Mexico, introduced this legislation over on 
the Senate side. So they are trying to move over there with it 
as well, and with that, I yield back the balance of my time.
    Mr. Pitts. Would one of you like to----
    Mr. Burgess. Mr. Chairman?
    Mr. Pitts. Yes, the vice chairman is recognized.
    Mr. Burgess. I wonder if I might have just one follow-up 
question with Mrs. Jackson. As an owner, are you consulted 
before the use of any performance-enhancing medication? Do you 
have the power to veto the use of this medication or are you 
just simply left out of the decision-making process?
    Mrs. Jackson. I think we have stated it pretty clearly with 
the trainers that we use, and we have chosen the trainers 
because they have not a history of using those kind of drugs. 
We also receive monthly bills where we are allowed to see what 
has been injected in our horse, what the horse has received, so 
we have an opportunity to know what is going on. I understand 
that trainers will inoculate horses on their own and pay for 
it, but I don't think we are associated with those kind of 
trainers. I think ours is a direct and very honest, good 
relationship with our trainers.
    Mr. Burgess. And you are to be commended for that, but does 
a trainer have the ability to set that standard--or not a 
trainer, does an owner have the opportunity to set that 
standard with their crew prior to engaging in any of this 
activity?
    Mrs. Jackson. I think it is a possibility, yes.
    Mr. Burgess. I mean, you are the owner, after all, correct, 
and you----
    Mrs. Jackson. Correct. Can you repeat that last part again? 
Obviously, I missed it.
    Mr. Burgess. Well, you are the owner so does the owner have 
the ability to affirmatively support or decline any of the 
performance-enhancing activity that might take place in a race?
    Mrs. Jackson. I think so, definitely. They own the horse. 
They pay the bills. It comes down to them.
    Mr. Burgess. But that is always after the fact. You are 
able as the owner to say here are the rules that I want you to 
play by, and they are then respected by the trainer and the 
rest of the racing crew. Is that correct?
    Mrs. Jackson. That has been my experience.
    Mr. Burgess. Thank you, Mr. Chairman.
    Mr. Pitts. Mr. Hancock would like to respond.
    Mr. Hancock. Yes, sir. I said to a top veterinarian in 
Kentucky about 3 years ago, I said I don't want for my horses 
to have any kind of anything, and he said well, Arthur, you 
want to win races, don't you? And that is the crux of the 
matter. We do have the authority to say no medication but it is 
like getting in a fight with one hand tied behind your back, 
and we have got a lot at stake here.
    Mr. Pitts. The Chair thanks the gentleman from Texas, who 
yields back, and I would like to thank our panelists for your 
testimony and for answering the questions. If we have follow-up 
questions that we send to you, could you please respond in 
writing? Thank you.
    At this point then we will dismiss panel one and call panel 
two to the witness table. We will recess for 3 minutes.
    [Recess.]
    Mr. Pitts. Recess having expired, we will ask our guests 
today to please take their seats. I will ask panel two to 
please take their seats.
    I would like to thank all of them for agreeing to testify 
before the subcommittee today. Our second panel will include 
four witness, one by video conference from the State of 
California. First of all, Mr. Kenny McPeek, a horse trainer; 
secondly, Dr. Kathryn Papp, a veterinarian with a private 
practice; thirdly, Mr. Glenn Thompson, a horse trainer; and 
finally, Dr. Gregory Ferraro, director of the Center for Equine 
Health at UC-Davis and an associate director of the Large 
Animal Clinic at UC-Davis. I see him on the screen, so thank 
you all for coming. We have your prepared statements.
    Mr. McPeek, we will begin with you, and you are recognized 
for your summary of your opening testimony.

  STATEMENTS OF KENNY MCPEEK, TRAINER; DR. KATHRYN PAPP, DVM, 
      HILLCREST MEADOW EQUINE SERVICES, LLC, HARRISBURG, 
    PENNSYLVANIA; GLENN THOMPSON, TRAINER AND AUTHOR: ``THE 
TRADITION OF CHEATING AT THE SPORT OF KINGS''; AND DR. GREGORY 
 FERRARO, DVM, PROFESSOR OF VETERINARY MEDICINE, AND DIRECTOR, 
   CENTER FOR EQUINE HEALTH, SCHOOL OF VETERINARY MEDICINE, 
                UNIVERSITY OF CALIFORNIA, DAVIS

                   STATEMENT OF KENNY MCPEEK

    Mr. McPeek. Thank you. Mr. Chairman, distinguished members 
of the subcommittee, thank you for inviting me here today to 
testify on this important topic.
    I am Kenny McPeek. As a Thoroughbred trainer, I have nearly 
8,000 starts and have won over 1,200 races in my career. I 
began my career at the lower levels as a claiming trainer, and 
until today I have saddled over 120 stakes winners during a 27-
year career. I have never at any point needed performance-
enhancing drugs, have never had a problem with so-called doping 
my career. I have experience not only as a trainer but as an 
agent and a farm owner, and I am fully vested in the horse 
industry and its long-term prospects are my reasons for being 
here.
    My hope is that this leads to a better version of this 
industry. Some refer to it as a sports, others, gambling, 
others as agriculture. It obviously is important in the number 
of jobs it offers this country and it is important that it 
thrives in the long term.
    I do not believe that any major decisions about horseracing 
should be made without the involvement from professionals like 
myself. There are other trainers that need to be heard and they 
should eventually be given an opportunity to contribute to this 
conversation. We are actually inside the arena. We deal with 
these issues on a daily basis. They are very complicated. It is 
not black and white. We all work very hard. We get up very 
early in the morning. We have to deal with no only horses, we 
deal with clients, we deal with a list of issues, whether it is 
business, labor laws, immigration laws. It is a very, very 
multitasking profession, training racehorses.
    My reasons for supporting the Horseracing Improvement Act 
would include standardized rules, licensing and medication. 
There are many issues that need to be addressed. I have 
concerns that the focus of the Interstate Horseracing Act is 
too narrow in its agenda. There are currently solid testing 
practices and penalties that are enforced by State racing 
commissions. However, they vary between States.
    Doping seems to be the focus here, and it is important to 
address these acts, but they are very rare. The current testing 
systems measure medication overages in micrograms, nanograms 
and picograms and our current testing methods are the most 
controlled of any sport in the world. Most of the positives are 
minimal due to these extreme measurements and I believe in many 
cases are due to poor stable management, metabolism rates in 
individual horses, and possibly environmental factors, not 
necessarily or always cheating and doping.
    The rules being different in each State and the States 
don't always clearly communicate the rules. Of course, 
enforcement of these medication rules is very, very important, 
and it would be wonderful to have uniform rules nationally, but 
how we can get 38 States to agree on one set of rules?
    I brought with me a book called ``World Rules on Equine 
Drug Testing and Therapeutic Medication Regulation.'' It was 
written by Dr. Tobin, Dr. Brewer and Ken Sterling with the 
support of the National HBPA. It attempts to clarify the 
complicated issue of medication in our sport. It shows that 
horsemen's groups are interested in clarity in medication 
policies in American racing. The book lists 99 different 
therapeutic drugs, not performance-enhancing drugs. If my 
colleagues or I make one mistake, then we are considered a 
cheater or a doper. The book addresses zero-tolerance policy, 
and I firmly believe that the involved parties aren't very far 
apart on these issues.
    My personal opinion is that I think we should make stakes 
races completely medication free including no Lasix. These 
stakes races are important because these horses are a 
significant part of the breeding programs and their genetic 
influence is vital to strengthening the Thoroughbred over a 
course of time. It also legitimizes our stallions and pedigrees 
to international buyers, which is good for the economics of the 
industry here in the United States.
    However, that being said, lower-level claiming horses need 
a certain amount of therapeutic medication and it would be a 
mistake to completely deny these horses a limit of medication. 
When I say that, I am saying there are horses that need Lasix. 
There are horses that do bleed. Now, for them to win a grade 
one, that is one thing, but for those horses to be given what 
up to now is considered a therapeutic medication in Lasix would 
probably be a positive. I think you may need to narrow the 
limits or at least how do you define a horse that actually 
needs it, and that is a very complicated topic and how can the 
racing jurisdiction or even national policy address what horse 
actually needs that as a therapeutic medication.
    Now, I am not condoning race-day medication in an anti-
inflammatory form. When I first started training, we used to be 
able to give Bute and Banamine the morning of the race. Now, in 
the course of probably the last, I can't remember if it is 10 
or 12 years ago, they actually removed those race-day drugs. I 
thought that was a positive and I do think it has had a 
positive effect. However, the nanograms, like, for example, 
those of that get up in the morning and take an Advil or a 
little Aleve to get through the day, that is one thing. The 
horse trainers have to decide if we give Bute, we need to know 
out times and so we don't miss the limits, like if it is 5 
nanograms, then we have to know, and that is what this book 
tries to address. Unfortunately, there are a lot of States and 
a lot of different medications and for most horsemen, most 
trainers haven't read this book. Most of them don't have it. 
But even if you have it, it is very difficult to understand.
    Concerning breakdowns, medication overuse is not the sole 
cause of breakdowns. There are so many factors including track 
surfaces. I am not sure you will completely eliminate the 
problem because injuries are unavoidable in all sports, not 
just horseracing.
    In the case of jockey safety, in some cases jockeys are 
injured due to clipping heels where actually jockeys actually 
make a mistake in a race, cut them off, run them into the rail. 
So those types of issues are out of a trainer's control and 
obviously there are suspensions often given by stewards and 
that issue in itself is very complicated.
    Mr. Pitts. Could you please summarize? Your entire written 
testimony will be entered into the record.
    Mr. McPeek. To finish, in many parts of racing are in 
place. However, they need organized structure on a national 
level to bring them together, perhaps even an American 
horseracing authority where Congress mandates either the Jockey 
Club or the National Racing Compact to make licensing rules and 
medication decisions to bring the sport more structure and less 
confusion.
    [The prepared statement of Mr. McPeek follows:]

    [GRAPHIC] [TIFF OMITTED] T8795.015
    
    [GRAPHIC] [TIFF OMITTED] T8795.016
    
    [GRAPHIC] [TIFF OMITTED] T8795.017
    
    [GRAPHIC] [TIFF OMITTED] T8795.018
    
    Mr. Pitts. Thank you. The Chair thanks the gentleman. I am 
sorry to have interrupted you but we are pressing towards a 12 
o'clock end time so we will ask everyone to maintain the 5-
minute rule.
    Dr. Papp, you are recognized for 5 minutes.

                   STATEMENT OF KATHRYN PAPP

    Dr. Papp. Good morning, and thank you to the committee for 
having me. My name is Kathryn Papp and I am a private 
veterinary practitioner with a practice currently based out of 
the Penn National Race Course in Grantville, Pa. I previously 
worked as a veterinarian at the Fair Hill Training Center and I 
am currently also doing regular work at the West Hampton 
Training Center in New Jersey and both Parks and Monmouth race 
tracks.
    Let me first begin by stating that I love and adore horses 
so much. They tirelessly give to us even in spite of us and our 
treatment of them. That is why I am in this profession, to 
advocate for those who can't advocate for themselves.
    Having said that, I am not for or against federal 
regulation of racing at this time. I am for the welfare of the 
horse and the wellbeing of those who are riding, and those 
people who are riding are not just the jockeys but the everyday 
exercise riders who are riding these horses during training 
hours. I am merely here today to state my observations as well 
as share my personal experiences and professional feelings on 
what is currently being conducted on the back side of many U.S. 
Thoroughbred racetracks and what else needs to be addressed in 
order to ensure the wellbeing of both horse and rider.
    The overuse and abuse of medication is rampant at our 
Thoroughbred racetracks and training centers. That abuse is not 
limited to just performance-enhancing drugs. It encompasses all 
substances that our trainers may think may improve their 
horse's performance from valid treatments to hokey and possibly 
dangerous therapies. Medications that are currently being 
overused at our racetracks include but are not limited to 
antibiotics, corticosteroids, NSAIDs, hormones and their 
analogs, calmative agents, hypersensitizing agents and 
respiratory aids, amongst many others. These substances are not 
just being used inappropriately around race time. More 
commonly, they are employed during training and the time 
leading up to races. I cannot tell you how many barns I know 
that train every one of their horses on phenylbutazone every 
day whether they need it or not. And Bute alone has many 
adverse effects to consider ranging from GI issues to renal 
issues.
    The issue does not just include active racing, as I said 
before. It is extremely important to address the medication use 
and rider safety during training hours, and this worry is 
compounded with the increased amount of races available at 
year-round tracks and increased purse sizes. These horses are 
more easily fatigued and thus require more medication to keep 
them going. Forgotten horsemanship is at the crux of this 
problem.
    Training centers notoriously harbor trainers who overuse 
and abuse medications. Some of these trainers may have medicine 
cabinets that rival the inventory in my vet truck and I know 
that I am not the one prescribing these drugs. So where are 
they coming from? Internet pharmacies, other veterinarians, 
overseas? While the AAEP has done a fantastic job addressing 
the weaknesses inherent in the industry in designing 
recommendations for those practicing in the pari-mutuel 
environment, these are merely recommendations, and honestly, 
not every racetrack practitioner is even a member of the AAEP 
or respectfully regards any suggestions they may bring to the 
table.
    The mighty dollar is a driving force for many veterinarians 
and trainers involved in horseracing. I know a trainer whose 
vet was going through a barn one day administering race-day 
medications. He had recently got a new expensive truck and the 
trainer said to him, how does it feel to be rich, and the vet 
said well, it sure doesn't suck. I also know racetrack 
veterinarians who own and market their own pharmacies for 
additional income, which is an inherent bias.
    I was present the other day when a trainer had entered a 
horse in a lower claiming horse, and the horse had been winning 
high-level races for quite some time, and somebody went out and 
said why did you enter this horse in such a low claiming race. 
They said, well, this horse hasn't been going really well 
lately, we're just trying to get rid of him as soon as 
possible, and this is the case in many situations.
    My focus as a racetrack veterinarian is on preventative and 
diagnostic medicine and surgery. I do not provide race-day 
medications and for the most part am not involved in the Lasix 
program unless filling in for a colleague. It is not uncommon 
for me to see on race day a practitioner enter a stall in one 
of the private barns or the detention barn with three to ten 
syringes full of medication to administer and not be questioned 
by anyone. In the meantime, there is hardly any surveillance of 
horses that are permanently stabled on the racetrack, and 
trainer administration of drugs is ubiquitous.
    Despite new regulations, horses are still having their 
joints injected with dexamethasone and other substances up 
until the day before a race. Not a week passes where I am not 
asked by an individual on the track or at the training center 
about a new product or a new treatment that they have heard 
about to make their horses run better and if I can obtain it 
for them.
    Of course, my regular clients already know better than to 
ask me how to cheat, and I am proud to say that one of my 
trainers I work has never incurred a positive test. Though many 
trainers who are using and penalized for positive tests if 
suspended continue to train either unabashed at training 
centers or via associates at the racetracks.
    Pain is a protective mechanism in all animals, and it 
allows these athletes to protect and save themselves in certain 
circumstances. Horses, especially Thoroughbred, will under 
every circumstance do anything necessary to remain upright and 
not fall or injure their riders. However, this protective 
mechanism is nullified when doping occurs and thus our riders 
and jockeys incur a significantly greater risk of injury or 
even death.
    A major encumbrance for the horseracing community is the 
lack of a central set of rules, published guidelines and 
serious punishments. The rules regarding the allowed use of 
medications including those on race day change from State to 
State, and many trainers will be racing a number of horses in a 
number of different States within any given week. It is hard 
even for me to keep track of the withdrawal times and ever-
changing medication rules amongst the different jurisdictions.
    In conclusion, we need central regulation of the sport, and 
I hope we can accomplish that amongst ourselves. However, 
action needs to be taken and completed quickly, deliberately 
and efficiently if we are to save our industry before it 
destroys itself. Our horses are suffering because of our non-
action, our riders are suffering because of our non-action and 
it is all of our faults. We need a collaborative effort to 
right the wrongs in today's racing environment. Most of all, we 
need a concerted effort to deter the overuse and abuse of drugs 
and a foolproof manner of which to enforce the rules and 
penalties set forth.
    I do believe we have come a long way since the last hearing 
in 2008 and strides have been made to improve the industry's 
image and the horses' welfare though many of these changes are 
still theoretical and academic. What we really need to do now 
is to take these accomplishments made in committee meetings and 
hearings and directly apply them to the back side of America's 
racetracks.
    [The prepared statement of Dr. Papp follows:]

    [GRAPHIC] [TIFF OMITTED] T8795.019
    
    [GRAPHIC] [TIFF OMITTED] T8795.020
    
    Mr. Pitts. The Chair thanks the gentlelady and now 
recognizes Mr. Glenn Thompson for 5 minutes for an opening 
statement.

                  STATEMENT OF GLENN THOMPSON

    Mr. Thompson. Chairman Pitts, Mr. Whitfield, Mr. Gerlach, 
Mr. Meehan and Heidi Stirrup, I know you did a lot of work and 
I want to thank you. My name is Glenn Thompson. I want you to 
know it is a privilege to stand alongside of you in this effort 
to clean up the great sport of racing. I have been a 
Thoroughbred trainer for over 30 years. I have never had a 
positive drug test and I have been blessed by the fact that I 
have never had to put a horse down on race day.
    I recently wrote a book, ``The Tradition of Cheating in the 
Sport of Kings,'' in an effort to return horsemanship and 
integrity back to the sport of racing. In the book, I claim 
that a vast majority of trainers and vets are giving illegal 
drugs on race day. Since my book came out in November, not one 
vet and not one trainer has stood up to challenge my claims.
    There is a culture of drugs that has taken over racing. 
Anyone that has chosen to train horses in the last 35 years 
would have a very difficult time avoiding the trap that we, and 
include myself in this group, have fallen into.
    I do want to be clear: I do not give illegal drugs on race 
day. When I hold a trophy in the winner's circle, it is mine. I 
won the race.
    From the time you start your first hot walking job until 
you take out your trainer's license, you were taught, if a 
horse has a problem, you do whatever it takes to get them 
healthy for the race. If there is an ankle problem, you give 
the horse Bute. If a horse bleeds, you give them Lasix. If a 
filly is in season, you give her a shot to take her out of 
season.
    Back before the use of drugs became so common, we had 
answers to these problems that did not require medication. Back 
in the day, we used horsemanship and patience and time to 
overcome our problems. But just like everything else in today's 
world we fell into the trap of the quick fix. Thus, our horses 
and every aspect of racing have suffered.
    Lasix is the biggest hurdle we have to overcome in racing 
right now. This past winter, I went for surgery, and contrary 
to my friends' belief, it was not brain surgery. The doctor 
stressed that I was not to take any anti-inflammatories within 
a week of my surgery because it could cause bleeding. Thank God 
we banned anabolic steroids a couple of years ago but we still 
routinely give corticosteroids to the horses very close to the 
race. One of the side effects for corticosteroids is bleeding. 
If you took a perfectly healthy horse with a strong set of 
lungs and gave it to a doctor and asked him to come up with 
drugs and a plan to make that horse bleed during a race, I 
would be willing to bet that a couple of his top choices in the 
drug department would be anti-inflammatories and steroids.
    The powers-that-be in racing, the people that we have 
trusted to make up the rules, have felt for the last 30 years 
that it is fine to give anti-inflammatories and steroids to 
horses 24 hours before they race, and then in their wisdom they 
scratch their heads and wonder why we have a bleeding problem.
    The plan that I think makes the most sense is to 
immediately ban Lasix and all other medications for 2-year-
olds. If a 2-year-old needs drugs to race, they might be trying 
to tell us that they want to wait until they are 3 to race. The 
2-year-olds that are not bleeding this year will hopefully be 
able to compete next year as 3-year-olds without bleeding. It 
would be a great accomplishment to have a Lasix-free Kentucky 
Derby in 2013 where none of the horses bleed.
    In 2014, Lasix is finished for all horses. By this time I 
feel we have a better handle on bleeding and hopefully some 
research can be done to help the older horses deal with the 
problems they will face. I highly recommend that the people 
that love horses and the people that do research dedicate a lot 
of time and energy into finding a better solution for the 
bleeding problem. Are we going to have horses bleed with this 
plan? Yes, we are. Is it going to be difficult? Yes, it is. But 
we are never going to know if we can climb this mountain if we 
just stand at the bottom and look up at it.
    I know some people are going to say, let us just ban it all 
now for all horses and that you are tired of waiting for change 
but I urge you to look out for the horses. To just suddenly 
stop Lasix, when a lot of the damage has already been done to 
their lungs, would be cruel and I feel we would see many horses 
possibly bleed to death on the track. The plan is a good one 
and it will work, and most importantly, it looks out for the 
horses.
    Now we are going to make a little transition here to the 
poster boy of bad behavior in racing, Mr. Richard Dutrow. Mr. 
Dutrow has had a few violations over the years, OK, so he has 
had 60 violations over the years, and the racing community 
wants to ban him from racing for 10 years. I want it known that 
if all the trainers in America or the vast majority of trainers 
in America had their actual records of what they treated their 
horses with on file on race day, the vast majority of trainers 
would all receive 10-year bans. They have just been a little 
smarter than Mr. Dutrow and not gotten themselves caught. I 
also want it known that Mr. Dutrow's breakdown record over the 
last few years, he has only had to put one horse down on race 
day in front of the crowd from his last 900 starts. Many other 
very prominent trainers have had to put several horses down on 
race day, several. My question to you, who is worse, the guy 
that has several rule violations or the guy that routinely has 
horses break down? I am going to leave that with you guys to 
think about. It is a very, very complicated issue.
    I am, however, going to tell you who should receive a 
lifetime suspension, and that would be the people that are in 
charge of the integrity of our great sport. The Jockey Club, 
the NRTA, the Grading Stakes Committee, the stewards and the 
track police are all complicit. They have all been ineffective 
in helping with the integrity and the drug issues we now face 
but the main culprits are the State racing commissions in the 
States across America. Their inability to come up with 
universal rules and their very lazy attempts at oversight I 
feel has led directly to the deaths of many horses and many 
horrific injuries to jockeys. I honestly feel that if the 
students in this school got together, they could do a better 
job.
    In closing, I want it understood that I did not enjoy 
writing my book. I struggled with doing it for years. I do not 
enjoy looking into some of my friends' eyes and seeing what I 
now see. I felt uneasy about coming to this hearing and 
testifying before you, but someone had to do it. Someone had to 
stand up for the horses, and it is my honor and privilege to do 
so.
    [The prepared statement of Mr. Thompson follows:]

    [GRAPHIC] [TIFF OMITTED] T8795.021
    
    [GRAPHIC] [TIFF OMITTED] T8795.022
    
    [GRAPHIC] [TIFF OMITTED] T8795.023
    
    [GRAPHIC] [TIFF OMITTED] T8795.024
    
    Mr. Pitts. The Chair thanks the gentleman and now 
recognizes Dr. Ferraro by video conference. Welcome. You are 
recognized for 5 minutes, Dr. Ferraro.

                  STATEMENT OF GREGORY FERRARO

    Dr. Ferraro. Mr. Chairman and members of the committee, 
thank you for inviting me to testify. I will paraphrase my 
statement--you have my written statement--and try to be brief.
    My background is, I was a racetrack practitioner for 27 
years on Southern California Thoroughbred Racetrack, and since 
1998 I have been the director of the Center for Equine Health 
at UC-Davis. As part of that job, I am the liaison between all 
aspects of the horse industry and the School of Veterinary 
Medicine, which means I come in contact with the racing 
industry, with the sport horse industry, hunters, jumpers, 
dressage, cutters, reiners, pleasure horses, just about any 
type of horse there is. I also do a lot of work with humane 
groups, people that are concerned about the welfare of horses 
who may not necessarily understand horses.
    I can tell you without a doubt that the general public 
whether we believe medication is good or bad for the horse, 
whether we can make the distinction between therapeutic 
medication and doping, the general public cannot, and they are 
overwhelmingly against any kind of use of drugs in horseracing. 
My general feeling about this is that if we continue to allow 
the use of drugs in horseracing of any kind on race day, any 
kind of positive testing, we will eventually lose our fan base 
and destroy the sport. So I think that this is a step that 
needs to be done.
    Based on my previous experience on the racetrack, I 
understand the opposition to not banning drugs such as Lasix 
and Butazolidin. In fact, I was one of the original proponents 
of that when those drugs were originally allowed. It is only 
through the benefit of hindsight now that I can see that my 
argument in proposing the use of Lasix and nonsteroidals was 
incorrect. It has not served the industry well. It has not 
served the horses well.
    I understand why many people are afraid of banning them, 
but if you think about it, there is almost no trainers or 
veterinarians engaged in racing these days who ever practiced 
without the use of those drugs so they firmly believe that they 
need them. I would argue that most of the rest of the modern 
racing world races without those permitted medications, and if 
they can do it, we can too.
    Finally, understanding the myriad of State and local 
controls over racing and the various interests from owners to 
trainers to racing jurisdictions, there is virtually no way 
that you are going to be able to get any kind of consistent 
rule to control these drugs without some kind of federal 
legislation. I just don't see it happening. And so while many 
of us feel that federal rules and regulations are something we 
want to keep out of our sport, I think in this instance, there 
is just no way to manage this without it.
    In conclusion, I would say that as a member of the 
veterinary profession, it saddens me greatly that we haven't 
served the horse industry better than we have. I think we made 
a mistake in the decision about 40 years ago to go down the 
path of permitting medication and I think it has taken us in 
the wrong direction.
    Thank you very much.
    [The prepared statement of Dr. Ferraro follows:]

    [GRAPHIC] [TIFF OMITTED] T8795.025
    
    [GRAPHIC] [TIFF OMITTED] T8795.026
    
    Mr. Pitts. The Chair thanks the gentleman from California 
for joining us, and we will now proceed with questioning and I 
will now begin the questioning and recognize myself for 5 
minutes for that purpose.
    Mr. McPeek, when horses go to the test barn, are test 
results accurate?
    Mr. McPeek. Well, as far as I know, they are. In the State 
of Kentucky where I race, primarily in New York, Kentucky and 
Florida, I would assume that they would be. I honestly--they 
don't show me the results.
    Mr. Pitts. Is it uniform from track to track or State to 
State?
    Mr. McPeek. State to State, it is not uniform, no. That is 
one of the things I was addressing in this book is that it 
gives you--Bute in particular, there are at least 38 different 
States and several countries they address in here that have 
different types of testing, like some of them are plasma serum, 
others are urine, and the out times are different in nearly 
every State. It is a very difficult--it is a moving target for 
a horse trainer.
    Mr. Pitts. Are all trainers treated equally by track 
officials?
    Mr. McPeek. I have always been treated equally, yes.
    Mr. Pitts. Who enforces racing rules?
    Mr. McPeek. Well, the stewards, Kentucky Racing Commission 
in the case of Keeneland and Churchill where we run now. In New 
York, you have the New York State Racing and Wagering Board, 
and of course, Florida, you have got--I can't remember the name 
of the organization, but they do a good job for the most part.
    Mr. Pitts. In your experience, are certain jurisdictions 
more lenient towards drugging?
    Mr. McPeek. I don't believe so, no. I believe they are all 
very serious about their jobs.
    Mr. Pitts. Dr. Papp, are racehorses being overmedicated?
    Dr. Papp. Yes.
    Mr. Pitts. In your professional opinion, can therapeutic 
drugs mask other more dangerous drugs?
    Dr. Papp. Yes.
    Mr. Pitts. Can steroids cause long-term damage to a horse?
    Dr. Papp. Absolutely.
    Mr. Pitts. Explain.
    Dr. Papp. Corticosteroids I think is what we are talking 
about here, the ones that are administered both parenterally 
and intra-articularly.
    Mr. Pitts. Differentiate between the legitimate use of 
steroids and----
    Dr. Papp. Sure, there is a lot of legitimate uses. For 
example, when a horse has hives, when they have an allergic 
reaction, we use steroids to calm the immune response. What it 
is used for, horses that have inflammation in joints and other 
parts of their body, we will administer corticosteroids at a 
reasonable does, at a reasonable time with an appropriate 
diagnosis. So usually we are talking about injection into 
joints of corticosteroids. The downside of these, immune 
suppression is a huge one, decreased bone density--we are 
seeing a lot of breakdowns directly related to corticosteroid 
use; increased chance of bleeding, as was mentioned before, and 
these corticosteroids can be administered at 24 hours out 
without being detected, at least in the State of Pennsylvania 
currently, and they are given in the vein and it can mask pain 
and inflammation, absolutely.
    Mr. Pitts. Mr. Thompson, do some trainers use chemists to 
obtain compounded drugs that are particularly powerful and 
undetectable with current testing methods?
    Mr. Thompson. I would imagine they do. I don't have any 
firsthand knowledge about that but I would imagine that they 
do.
    Mr. Pitts. Will industry groups like the Jockey Club and 
the NTRA make changes to medication rules voluntarily, in your 
opinion?
    Mr. Thompson. They don't have the power but, you know, I 
have no clue why these 36 States can't have a meeting and get 
together and sit down and get the job done. I mean, they should 
be able to have a meeting, call a meeting, get together, come 
up with universal rules. They have the power. The Jockey Club 
does not. The NTRA does not. The racing commissions do.
    Mr. Pitts. We continue to hear that no industry group has 
the authority needed to institute changes and that every change 
is voluntary, that there is no uniformity among racing 
jurisdictions. In your opinion, is a federal regulatory 
framework the only realistic solution?
    Mr. Thompson. I hope not. I mean, I hope the racing 
commissions get together and have their meeting, and if they 
don't, then I hope you do come in and straighten it out.
    Mr. Pitts. Dr. Ferraro, the Racing Medication and Testing 
Consortium has existed in one form or another for approximately 
25 years. Is it an effective group with a well-understood 
mandate and how effective is the group and the board that 
governs it?
    Dr. Ferraro. I think the group is very effective in terms 
of improving the testing, monitoring, making recommendations on 
testing. Unfortunately, they really do not have any control 
over regulations.
    Mr. Pitts. Do you believe, Dr. Ferraro, that there should 
be a zero-tolerance policy for steroids in horseracing?
    Dr. Ferraro. I think that there should be no drugs, 
detectable drugs, in the horse's system at the time of racing.
    Mr. Pitts. Many people talk about the exercise-induced 
nosebleeds that are not uncommon in these horses but state that 
they do not necessarily hurt the horse's performance. Does this 
condition damage the lungs, however? Is this bleeding the 
result of overworking the animal?
    Dr. Ferraro. There is a difference in bleeders. There is 
what they call a physiological bleeder. You talk to people that 
are engaged in hundred-mile races, humans, they will tell you 
they frequently taste blood, just from the exercise induction 
of leakage across the capillaries. But there are pathological 
bleeders. It is the veterinarian's job to separate the two and 
treat the pathological ones and leave the physiological 
bleeders alone. I believe as have others have stated here that 
nonsteroidals and the other drugs we are giving are leading us 
down that path.
    Secondly, I think by continuing to treat these bleeding 
animals and giving them the crutch that they need to continue 
to race, we are sending animals to the breeding shed that we 
probably shouldn't.
    Mr. Pitts. The Chair thanks the gentleman. My time is 
expired.
    I will go now to the vice chairman, the gentleman from 
Texas, Dr. Burgess. Are you there?
    Mr. Burgess. I am here, Chairman. Thank you.
    Mr. Pitts. All right. You are recognized for 5 minutes for 
questions.
    Mr. Burgess. Dr. Ferraro, let me ask you a question, if I 
could. You referenced the designation of permissible race-day 
medications some 40 years ago as perhaps the beginning of this 
problem. Did I understand that correctly?
    Dr. Ferraro. That is correct. I testified on behalf of 
those drugs before racing commissions before they were ever 
permitted.
    Mr. Burgess. Chairman Whitfield delineated for us a list of 
stakeholders who might be opposed to a federal solution or 
federal legislation, and here is the difficulty I am having. If 
there is the ability either with the racing commissioners or 
within your professional organizations to deal with this, just 
in my experience, you are so much better doing that than asking 
the United States Congress to get involved. Because 
unfortunately, sometimes our involvement actually creates new 
and unforeseen problems. The law of unintended consequences is 
one that is alive and well in your United States Congress. So 
is there any possibility for putting the genie back in the 
bottle and rolling back the last 40 years and creating a 
structure within the industry itself where federal legislation 
would not be necessary?
    Dr. Ferraro. I haven't seen it, and I can't see it coming. 
I agree with everything you said. That worries me considerably. 
But you had similar hearings to this 2 years ago where the 
industry promised you that they were going to do something 
about this and they have basically done nothing. You have to 
understand the individual racing jurisdictions' viewpoint on 
this. If, for example, California decided that they weren't 
going to allow medication on their own, there is a very good 
possibility that most of their race trainers and racehorses 
would move to another jurisdiction, thereby destroying the 
industry within their own State. So unless you have some kind 
of national rule that is instituted across the country at the 
same time, I don't see that any individual State or racing 
jurisdiction is going to do anything about it.
    Mr. Burgess. Except you referenced that the fan base wants 
this. They want the drugs out of the industry. So it seems to 
me if you had large jurisdictions like California, like Texas, 
maybe Kentucky joining in, that if they were together to say we 
are having no more of this, then the rest of the country would 
fall in line. Is that just wishful thinking?
    Dr. Ferraro. Unfortunately, I am afraid it is. I mean, I 
wish it could be that way. If you look at our fan base in 
California, for example, it is eroding fairly rapidly, and I 
personally can go to other types of equine sporting events and 
see the fans and the owners that used to be in racing that have 
gone to other sports, and the simple reason is to get away from 
this drug culture.
    Mr. Burgess. Let me just ask you one last question. You 
talked about pathological and physiological bleeding. For those 
of us who are not knowledgeable of your field, a horse that has 
pathological bleeding, how is that likely to present?
    Dr. Ferraro. Usually there is some damage to the lung that 
is identifiable by either ultrasounds or radiographs. There is 
a consolidation lesion often. We have what we call a bleeder's 
lung. It is a pretty commonly accepted type of changes in the 
lung that we see. Those horses need rest and therapeutic 
medication but not during the period of their training.
    Mr. Burgess. And what are the symptoms that they present 
with?
    Dr. Ferraro. These horses bleed profusely. They bleed in 
the morning. They bleed galloping. They tend to degenerate over 
time in their performance. It is much different than most of 
the horses.
    Mr. Burgess. And is there a way to restrict the horse 
designated as a pathological bleeder from racing?
    Dr. Ferraro. Not that I am aware of.
    Mr. Burgess. So you simply medicate and put them back on 
the track?
    Dr. Ferraro. Yes, it is a trainer and owner judgment on it, 
I believe.
    Mr. Burgess. Well, thank you.
    Thank you, Mr. Chairman, for the indulgence. I will yield 
back my time.
    Mr. Pitts. The Chair thanks the gentleman and now 
recognizes the gentleman from Kentucky, Mr. Whitfield, for 5 
minutes for questions.
    Mr. Whitfield. Thank you.
    Dr. Ferraro, you had indicated that you gave testimony to 
State racing authorities in which you advocated the use of 
Lasix and other drugs, and now you have changed your mind. 
Could you in a very short period explain to us primarily why 
you changed your mind?
    Dr. Ferraro. Well, I will give you the reason that I gave 
the commissioners when I argued for the medication, and in the 
case of the nonsteroidals, the argument was, well, if we can 
use the nonsteroidals in proximity to racing, we wouldn't have 
to inject as many joints with steroids and we would avoid that. 
That has proven not to be the case.
    In the case of Lasix, we knew at the time when we argued 
for Lasix that it really wasn't a very good drug to control 
exercise-induced pulmonary hemorrhage. We knew that 40 years 
ago. What we argued was, give us this crutch, give us this drug 
that we can use now and we will find a better way to treat 
these animals. What in fact has happened is, because we have 
Lasix, we are not really moving down the line to find something 
better, to find a better solution. Bleeding in horses, 
exercise-induced pulmonary hemorrhage is a very complicated 
syndrome. There is a lot of things going on. It is not just the 
lung, it is also the heart, the buildup of pulmonary artery 
pressure. So it is a very complicated syndrome. I believe that 
the fact that we have had Lasix in racing has really slowed us 
down in trying to sole this problem.
    What I have seen when I look back now compared to--the 
United States compared to Britain, France, some of the other 
racing jurisdictions around the world, is that their racing has 
done much better than ours. If you look at their stallions, 
particularly the ones in Europe, they are much better than ours 
now. The offspring of these stallions are better racehorses and 
I believe we have done a detriment to the breed.
    Mr. Whitfield. Thank you.
    Mr. McPeek, you held up that book just a few minutes ago, 
and someone had mentioned earlier that there were like 99 
acceptable drug withdrawals, and I know that when State racing 
commissions get involved in trying to adopt these rules, the 
withdrawal time always create confusion and yet I was looking 
at the rules in Great Britain and some in Europe, they have 
like the 20 most commonly used drugs and they set out very 
explicitly the withdrawal times, and anything else detected 
would not be allowed. It seems that it would be better for us 
to simply decrease the number of acceptable drugs that we have 
set the withdrawal times for. Would that make sense to you?
    Mr. McPeek. Absolutely. These are therapeutic drugs for the 
most part, and I brought several copies with me. There is a box 
full of them over there. I anyone would like to take those 
home, feel free. But it is. It is very complicated, and we need 
to narrow the focus. Instead of having a whole book, it would 
be nice if it was on one page.
    Mr. Whitfield. It is very complicated, and you look around 
jurisdictions, and we know that--Dr. Papp, her testimony was 
pretty dynamic. She was talking about rampant misuse and abuse, 
and very few trainers are every suspended for any length of 
time because there is always legal suits, there is always 
withdrawal times. That becomes a big legal issue. It is a 
morass. And this term ``layering'', for example, have you ever 
heard of the term ``layering''? Have you, Dr. Papp?
    Dr. Papp. No.
    Mr. Whitfield. Well, I have been told that some people use 
this drug, this drug, this drug up to the limit and alone they 
wouldn't have much impact but together they can mask other 
agents.
    Dr. Papp. Stacking.
    Mr. Whitfield. Stacking? So I think that is pretty 
prevalent also would you say, Dr. Papp?
    Mr. McPeek. I have never heard of such a thing. I have 
never--I trust the veterinarian to a limit. I also try to keep 
them within--you have to rein them in. You have to say OK, we 
are not going to let you do that because I don't think we need 
to do that, but it is a balance.
    Mr. Whitfield. I wish more trainers were like you, Mr. 
McPeek, but I get the idea that there are not a lot of like you 
out there.
    But Mr. Thompson, you mentioned that the ideal thing would 
be get these commissions together and come up with these rules. 
I mean, I don't want to see the federal government involved 
either. We are already involved in that we gave the ability to 
do simulcasting through the Interstate Horseracing Act, and I 
think we can amend it and set guidelines and still have 
authority vested locally. But the problem with letting the 
racing commissions try to do this, I have heard time after time 
after time where the racing commission would make a decision, 
tighten up the rules and then the HBPA or some other horsemen's 
group would go to the legislature and they would simply reverse 
it.
    Mr. Thompson. If these guys got together as a group and 
came up with rules, universal rules, nobody would be able to 
fight it. If they got together, 36 States, made a plan and did 
it, that would be it.
    Mr. Whitfield. And we have been waiting for that for a 
while.
    Mr. Thompson. A long time.
    Mr. Whitfield. Thank you. My time is expired.
    Mr. Pitts. The Chair thanks the gentleman and now 
recognizes the gentleman from Chester County, Mr. Gerlach, for 
5 minutes for questions.
    Mr. Gerlach. Thank you very much.
    Dr. Papp, in your testimony, and I will quote here from 
just one line, ``The overuse and abuse of medication is rampant 
at our Thoroughbred racetracks and training centers.'' In 
Pennsylvania, since primarily your testimony indicates you 
normally work out of Pennsylvania, maybe a little bit in New 
Jersey, what are the current racing commission obligations and 
responsibilities for a veterinarian to report abusive 
veterinarian practices with horses? What obligation 
professionally under the racing commission rules and 
regulations you have to report that conduct?
    Dr. Papp. As far as misconduct, there is no rule saying 
that one veterinarian has to report misconduct of another 
veterinarian or, you know, it is up to their discretion if they 
see a trainer abusing the medications. We have to produce day 
sheets for every medication and every treatment we do on each 
horse every day whether it is on the honor system, whether or 
not people put--the veterinarians put down what they actually 
give and so.
    Mr. Gerlach. Has there been any discussion on that issue, 
do you know, in the racing commissions in Pennsylvania, New 
Jersey about whether there out to be mandatory requirements for 
reporting of abusive activities?
    Dr. Papp. I read that they had recently talked about it at 
the Oklahoma meeting. However, not in Pennsylvania, to my 
knowledge.
    Mr. Gerlach. How about from the professional 
responsibility? I know, for example, those that are in law have 
some ethical responsibilities to report inappropriate conduct 
by fellow attorneys, same thing perhaps in the medical 
profession. How about in the veterinarian profession? Are there 
rules of professional responsibility that the veterinary board 
here in Pennsylvania--and I am pretty sure there is one in New 
Jersey as well--from a professional responsibility standpoint 
what obligations might there be to report conduct that is not 
in the appropriate--that is inappropriate conduct for the 
handling of a horse and at some point perhaps able to cause 
injury to both the horse and the rider at some point?
    Dr. Papp. You are able to report it to your State board. 
However, there will be an investigation and it basically comes 
down to proof, and that many times is difficult, and if you are 
unsuccessful with your proceeding forward with that, you can be 
basically shunned from the veterinary community.
    Mr. Gerlach. Are you aware of any cases brought before the 
professional responsibility organization here in Pennsylvania 
or New Jersey of a veterinarian who has inappropriately 
conducted his or her practice with horses?
    Dr. Papp. Actually, I just heard a few days ago that there 
is a young veterinarian in New Jersey that was treating 
standard bred horses. They had left an injectable vitamin with 
a trainer at the training center and that trainer gave the 
medication and the horse died, and the veterinarian was 
basically put on the chopping block because of this, and that 
is the first time I have heard of that actually happening.
    Mr. Gerlach. Well, thank you for your testimony today. I 
yield back.
    Mr. Pitts. The Chair thanks the gentleman and recognizes 
the gentleman from Delaware County, Mr. Meehan, for 5 minutes 
for questions.
    Mr. Meehan. Thank you, Mr. Chairman, and once again, I want 
to thank this distinguished panel, particularly those of you 
who I know when you give this kind of testimony, you go back 
and talk to some of yours in the industry that may be looking 
and thinking, you know, how come you are here stepping up, but 
that is a question I have first. As trainers, if you weren't 
participating in the doping, aren't you at a competitive 
disadvantage? I mean, how do you put out there? You said you 
didn't have a horse that went down or you mentioned, I think, 
your testimony, how can you compete in an industry like this if 
you are not doing the doping?
    Mr. Thompson. You got to have a good horse.
    Mr. McPeek. I have spent an entire career finding good 
horses for people.
    Mr. Meehan. And the key is--you get a good horse but you 
are still having somebody else on that horse's tail in an 
appropriate fashion. You still compete then without the 
enhancement?
    Mr. McPeek. I don't believe that drugs make a horse that 
much better in some cases. I think in many cases, they have a 
negative response, even from the Lasix. So if you get a really 
good horse, a good horse--I always said the first good horse in 
my career, which was Tahana Run, second in the Derby, I could 
have fed him rocks and Budweiser and he was going to outrun 
most of them. He was that good. But he was that talented. And 
so I have spent my time going to horse auctions--Keeneland, 
Fasic, Tipton--and I have perfected my eye to find the best 
horses. I take those horses, I develop them slowly. We don't 
use any--we don't use hardly any medication. We don't treat 
young horses with Bute. A lot of times we will make several of 
our first starts without Lasix. I won stakes last year without 
Lasix at all.
    Mr. Meehan. But you as a trainer, if you can find that, 
that is wonderful, but you are looking to try to win a race 
when we are looking at this industry in addition to trying to 
win a particular race, I go back to this concern for the health 
and welfare of not just the animals but the jockeys themselves. 
So how does your jockey know that the other eight or so horses 
out there aren't in a position to break a leg?
    Mr. McPeek. The best way I can explain it is, is that I get 
a large group of young horses every year, and a lot of them get 
claimed off me. I have horses, and let us say I get 50 young 
horses. Out of the 50, 40 of them will be average, middle of 
the road, good, solid horses that end up going to secondary 
circuits. Mr. Dutrow loves claiming off me, OK, but then the 10 
horses are the ones that I am after, and my clients ultimately, 
we want stake horses, and if we get those top horses out of the 
group, and that is very typical percentages, about 20 percent 
of your horses in a young crop are going to be good. But the 
definition of where they are going and how much--how do they 
improve them when I lose them, and they are not getting 
improved.
    Mr. Meehan. They are going out and they are racing at other 
tracks?
    Mr. McPeek. They are racing at other tracks.
    Mr. Meehan. Claims races and things of that nature.
    Mr. McPeek. They claim off me like crazy. They take horses 
me in Florida, Kentucky, New York. We are not seeing a dramatic 
improvement. So I am not convinced that there is a huge issue 
with doping and all these issues that we are talking about 
here. The issue is that the rules are inconsistent and they 
vary State to State, and we need to get that straightened out. 
It will eliminate the confusion.
    Mr. Meehan. You said there is not a huge issue with the 
doping, and I was struck by your testimony at the outset that 
you didn't think that there were--there were other factors that 
could also contribute. But the New York Times article lays out 
very clearly a pattern of increased injury associated with the 
advent of the use of the drugs and the significant growth in 
the drugs. Now, how do you describe the discrepancy then when 
presumably conditions are getting better?
    Mr. McPeek. I have read the articles. I have read them 
closely, and I am trying to figure out which horses they are 
talking about, and it is the lower-level horses they are 
discussing. One thing that I do--you know, and this is a 
personal opinion again. I think winter racing is a very 
difficult time of year to be racing horses. You know, they are 
running over frozen racetracks. In some cases those tracks 
aren't maintained as well. And I am not blaming New York Racing 
Association for that. But that is a fact. It is more difficult 
to handle those surfaces during difficult weather. But, you 
know, the issues are complicated. I mean, can you blame the 
breakdowns that the New York Times is bringing up to strictly 
medication? It is hard to see how they could be clear on that 
or for sure.
    Mr. Meehan. Well, I looked at the article this morning. I 
haven't had a chance to know all of the facts but I am taking 
it on its basis that it was not just the doping that was 
associated with it but it was putting a horse out there that 
had some injuries that they were aware of with regard to some 
injuries to the knee and otherwise. And this was the word of 
one of the trainers: ``As you are undoubtedly aware, with an 
impaired ankle, this horse is a danger to himself, his ride and 
everyone on any track where he is allowed to work and race.'' 
So let me ask you, we use the word earlier about reckless 
disregard, and I used that word as a term of art as a former 
prosecutor. When somebody knows that a horse has a problem with 
a joint or an ankle, uses drugs and puts them out there, would 
you consider that to be reckless disregard for the welfare and 
concern of that jockey and any others who are racing on that 
track?
    Mr. McPeek. Well, I know these issues well. OK. When you 
say an ankle, OK, has the horse had a P1 sagittal ridge 
removed? Does he have cartilage issues? Does he actually have a 
fracture that is in the base of the ankle? That is another 
deal. If a horse has a fracture in the base of the canon bone 
that is causing inflammation and they have injected that joint, 
that is absolutely the wrong move. But a veterinarian would 
have X-rayed that if he was a good veterinarian or a good 
trainer would have taken a picture, made sure that the ankle 
was----
    Mr. Meehan. We are talking about Dr. Papp's testimony where 
you have people walking in with vials of----
    Mr. McPeek. I have never seen that. Maybe I am naive. But 
the issue--if you are talking about whether it is an ankle or a 
knee, you have got so many different versions. Horses have 
ankle surgery, they have knee surgery, they have OCD, 
osteochondrosis, which is a bone density issue. Those horses 
will have joint fluid and they will have--and the rules say 
that you are allowed to use certain medication at this point 
and so the trainers that--even if they injected that particular 
ankle, what depth of knowledge do they have about the horse's 
issue and if that depth of knowledge was solid and that the 
veterinarian that they are working with has done their due 
diligence, then they didn't do anything wrong. However, that is 
what the rule systems are set up. That is how they are set up. 
And, you know, talking about joint issues, cortisone in joints 
I think is something in the long run we need to start 
addressing. When you put strictly cortisone in a joint, it in 
the long term deteriorates that joint, and we have had over the 
course--and I am lucky. I have got clients that will pay for 
what we call aleuronic acid and it is poor word but it actually 
lubricates a joint. It increases the cartilage. It improves 
cartilage growth. And it is a positive. And then a very minimal 
amount of cortisone would follow that, or in some cases, none 
at all. So how we deal with those physical issues is very, very 
complicated. It is not black and white.
    Mr. Meehan. Mr. Chairman, thank you. I know my time is 
expired. Dr. Papp, do you have a last observation? You are a 
veterinarian.
    Dr. Papp. Yes, just a quick observation is that I agree 
with you on the corticosteroid issue. However, I see trainers, 
lower-level claiming trainers that are just scraping to get by 
that will not pay for an X-ray. So you are talking about good 
trainers that will do their due diligence. However, I offer X-
rays in almost all of these situations and the trainers very 
frequently respond, I will just put some poultice on it, see 
how it looks tomorrow, if it doesn't look as bad, I am going to 
keep going, and that is how it is.
    Mr. Thompson. Mr. Pitts, could I have one second?
    Mr. Pitts. Yes, Mr. Thompson, you have the last word.
    Mr. Thompson. All right. I would like to ask our future 
fans, the students, or did they leave?
    Mr. Pitts. They just walked out.
    Mr. Thompson. I wanted to see if any of them were coming to 
the races next week.
    With that, I will ask the witnesses, if we have follow-up 
questions, will you please respond in writing? Thank you very 
much for your testimony, for the answers. It has been a very 
informative hearing.
    Again, I want to thank Unionville High School for the use 
of your state-of-the-art facilities. I want to thank everyone 
for coming. I want to thank the members and the witnesses for 
your testimony.
    At this time I would request unanimous consent to insert a 
statement from Senator Udall and a statement from Dr. Scott 
Palmer for the record. Hearing no objection, so ordered.
    I remind the members that they have 10 business days to 
submit questions for the record, and I ask the witnesses to 
respond promptly to the questions. Members should submit their 
questions by the close of business on Monday, May 14th.
    Without objection, the subcommittee is adjourned.
    [Whereupon, at 12:05 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T8795.027
    
    [GRAPHIC] [TIFF OMITTED] T8795.028
    
    [GRAPHIC] [TIFF OMITTED] T8795.029
    
    [GRAPHIC] [TIFF OMITTED] T8795.030
    
    [GRAPHIC] [TIFF OMITTED] T8795.031
    
    [GRAPHIC] [TIFF OMITTED] T8795.032
    
    [GRAPHIC] [TIFF OMITTED] T8795.033
    
    [GRAPHIC] [TIFF OMITTED] T8795.034
    
    [GRAPHIC] [TIFF OMITTED] T8795.035
    
    [GRAPHIC] [TIFF OMITTED] T8795.036
    
    [GRAPHIC] [TIFF OMITTED] T8795.037
    
    [GRAPHIC] [TIFF OMITTED] T8795.038
    
    [GRAPHIC] [TIFF OMITTED] T8795.039
    
    [GRAPHIC] [TIFF OMITTED] T8795.040
    
    [GRAPHIC] [TIFF OMITTED] T8795.041
    
    [GRAPHIC] [TIFF OMITTED] T8795.042
    
    [GRAPHIC] [TIFF OMITTED] T8795.043
    
    [GRAPHIC] [TIFF OMITTED] T8795.044
    
    [GRAPHIC] [TIFF OMITTED] T8795.045
    
    [GRAPHIC] [TIFF OMITTED] T8795.046
    
    [GRAPHIC] [TIFF OMITTED] T8795.047
    
    [GRAPHIC] [TIFF OMITTED] T8795.048
    
    [GRAPHIC] [TIFF OMITTED] T8795.049
    
    [GRAPHIC] [TIFF OMITTED] T8795.050
    
    [GRAPHIC] [TIFF OMITTED] T8795.051
    
    [GRAPHIC] [TIFF OMITTED] T8795.052
    
    [GRAPHIC] [TIFF OMITTED] T8795.053
    
    [GRAPHIC] [TIFF OMITTED] T8795.054
    
    [GRAPHIC] [TIFF OMITTED] T8795.055
    
    [GRAPHIC] [TIFF OMITTED] T8795.056
    

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
